<html>
<title> - METHAMPHETAMINE EPIDEMIC ELIMINATION ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       METHAMPHETAMINE EPIDEMIC 
                            ELIMINATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3889

                               __________

                           SEPTEMBER 27, 2005

                               __________

                           Serial No. 109-61

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-641                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                  Michael Volkov, Acting Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 27, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

The Honorable Mark Souder, a Representative in Congress from the 
  State of Indiana
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
The Honorable Mark Kennedy, a Representative in Congress from the 
  State of Minnesota
  Oral Testimony.................................................    16
  Prepared Statement.............................................    17
Mr. Joseph T. Rannazzisi, Deputy Chief, Office of Enforcement 
  Operations, U.S. Drug Enforcement Administration
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Mr. Barry M. Lester, Ph.D., Professor of Psychiatry and Human 
  Behavior and Pediatrics, Brown University Medical School
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    47
Prepared Statement of Freda S. Baker, Deputy Director, Family and 
  Children's Services, Alabama State Department of Human 
  Resources......................................................    49
Prepared Statement of Laura J. Birkmeyer, Chair, National 
  Alliance for Drug Endangered Children, and Executive Assistant 
  to U.S. Attorney, Southern District of California, United 
  States Department of Justice...................................    55
Publication entitled ``The Meth Epidemic in America, Two Surveys 
  of U.S. Counties: The Criminal Effect of Meth on Communities, 
  The Impact of Meth on Children, submitted by the National 
  Associatino of Counties (NACo).................................    62
Letter from A. Bradford Card, Legislative Liaison, National 
  Troopers Coalition to the Honorable Mark Souder and the 
  Honorable Elijah Cummings......................................    74
Letter from Donald Baldwin, Washington Director, Federal Criminal 
  Investigators Association to the Honorable Howard Coble........    75
Letter from Chuck Canterbury, National President, Grand Lodge 
  Fraternal Order of Police (FOP) to the Honorable Mark Souder...    76
Letter from William J. Johnson, Executive Director, National 
  Association of Police Organizations, Inc.......................    78
Prepared Statement of the Therapeutic Communities of America 
  (TCA)..........................................................    79
Prepared Statement of the Food Marketing Institute (FMI).........    80
Prepared Statement of the American Council on Regulatory 
  Compliance.....................................................    82
Article entitled ``The Mexican Connection,'' Steve Suo, June 5, 
  2005, The Oregonian, submitted by the Honorable Robert C. Scott    85
Article entitled ``More potent supply of meth wipes out success 
  against home labs,'' Steve Suo, September 25, 2005, The 
  Oregonian, submitted by the Honorable Robert C. Scott..........    95
Letter from various medical and psychological researchers to the 
  Subcommittee...................................................   100
Additional Prepared Statement of Dr. Barry M. Lester, Professor 
  of Psychiatry & Human Behavior and Pediatrics, Brown University 
  Medical School.................................................   107


                       METHAMPHETAMINE EPIDEMIC 
                            ELIMINATION ACT

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:02 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chair of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. We welcome 
you all to this important hearing to examine the national 
epidemic of metham----
    Meth--I did it without stumbling yesterday--with meth 
abuse; and specifically, H.R. 3889, the ``Meth Epidemic 
Elimination Act,'' a bipartisan proposal which was introduced 
by Representative Souder, our friend from the heartland, and 
the Chairman of the full Judiciary Committee of the House.
    In the last few years, the problem of meth abuse has grown 
dramatically from what was typically characterized as a local 
or a regional problem to a problem of national dimension. Some 
contend that meth is now the most significant drug abuse 
problem in the country, surpassing marijuana.
    The impact of meth abuse is complicated by the 
dangerousness of the drug, the ease of production, the toxicity 
of the drug itself, the production byproducts, exposure of 
children to the drug when present in locations where meth is 
produced, the environmental cost of meth labs, and the 
significant strain of law enforcement resources resulting from 
enforcement and clean-up actions.
    The National Association of Counties recently published a 
survey that revealed that 60 percent of responding counties 
stated meth was their largest drug problem. Sixty-seven percent 
reported increases in meth-related arrests.
    Most of the meth found in the United States is produced by 
Mexico-based and California-based Mexican traffickers using 
superlabs. The rapid spread of meth, however, also can be 
attributed to the proliferation of small, toxic laboratories 
which have had a dramatic impact on communities across the 
nation.
    No longer are these labs limited to what are termed ``mom 
and pop labs,'' but now have become more sophisticated and 
organized production and distribution outlets; causing more and 
more law enforcement resources to be used to dismantle such 
operations and then to clean up the labs. As a result, local 
law enforcement agencies are strained by the sheer number of 
these labs and the accompanying clean-up costs.
    Meth labs also have been linked to significant instances of 
child abuse. Children face specific dangers from inhalation, 
absorption, or ingestion of toxic chemicals or contaminated 
food that may result in respiratory difficulties, chemical 
burns, or ultimately, death. Between 2000 and 2003, more than 
10,000 children were affected by meth manufacturing. 
Approximately one in ten children tested positive for meth. And 
of those, children less than 6 years of age were twice as 
likely to test positive, as were children between the ages of 
seven and 14.
    In San Diego, for example, more than 400 children have been 
taken into protective custody in the past 12 months. More than 
95 percent of these children come from homes where there was 
meth use and trafficking.
    The meth problem has significant consequences for the 
environment as well. The production of one pound of meth 
releases poisonous gas into the atmosphere, and creates 5 to 7 
pounds of toxic waste. Many laboratory operators dump the toxic 
waste down household drains, in fields and yards, and onto 
rural roads. In 2004, the DEA administered over 10,000 State 
and local clandestine laboratory clean-ups at a cost of 
approximately $17.8 million.
    Given the spread of meth abuse, and the near-crisis impact 
on local communities and law enforcement, there is no question 
that something must be done to resolve the problem, and done 
now.
    I want to commend my colleagues; the Chairman, Chairman 
Sensenbrenner; Representative Souder; Representative Kennedy, 
from the northern tier; and others who have worked so 
diligently on this issue and recently introduced H.R. 3889, a 
bipartisan proposal which represents a good first step to 
addressing the problem. We are looking forward to hearing from 
our distinguished panel of witnesses.
    And I am now pleased to recognize the distinguished 
gentleman from Virginia, the Ranking Member of this 
Subcommittee, the Honorable Bobby Scott.
    Mr. Scott. Well, thank you, Mr. Chairman. And I'm pleased 
to join you in convening the hearing on Methamphetamine 
Epidemic Elimination Act. Unfortunately, I am not able to join 
you in supporting the bill in its present form.
    In the last 15 to 20 years, meth abuse has grown to what 
some now refer to epidemic proportions in parts of this 
country. We've been making efforts in Congress for years to 
address the meth problem. The Subcommittee on Crime held six 
field hearings on production, trafficking, and use in 1999, in 
Arkansas, California, New Mexico, and Kansas. Testimony was 
received from numerous witnesses, including former addicts, 
family members of victims of meth-related violence, law 
enforcement professionals, prevention and addiction treatment 
professionals.
    Despite what we heard about the need for treatment and 
family support to get people out of meth's grip and back on 
track, the basic approach of Congress has been to increase the 
number of severe mandatory minimum sentences. Yet, the fact is 
that this approach clearly has not worked to stem the tide of 
meth. In fact, there's no evidence to suggest that it ever 
will.
    Evidence shows that treatment works to stem addiction and 
abuse. Recently, in an open letter to the news media and 
policymakers, 92 researchers and treatment professionals stated 
that, and I quote:
    ``Claims that meth users are virtually untreatable, with 
small recovery rates, lack foundation in medical research. 
Analysis of drop-out, retention and treatment, and 
reincarceration rates, and other measures of outcome in recent 
studies indicate that meth users respond in an equivalent 
manner as individuals admitted for other drug abuse problems. 
Research also suggests that the need to improve and expand 
treatment offered--Research also suggests the need to improve 
and expand treatment offered to meth users.''
    Drug courts have proven especially successful in the case 
of meth treatment as an alternative to the ``get tough'' 
approach. An Orange County, California, Superior Court drug 
court program is an example of a program that has effectively 
addressed the meth problem. The court requires a minimum of an 
18-month treatment program in which a graduate must be drug-
free for at least 6 months, have stable living arrangements, 
and be employed or enrolled in school.
    This has shown to have a significant retention rate, with a 
much lower recidivism rate than you would expect for drug 
users. Nonetheless, time and time again, Congress has responded 
to this serious problem primarily with more and harsher 
mandatory minimums.
    In the Anti-Drug Abuse Act of 1988, Congress established a 
5-year mandatory minimum for 10 grams of pure meth or 100 grams 
of meth mixture, and a 10-year minimum for 100 grams. In 1999, 
Congress heightened the sentencing for ``ice.'' Then again, in 
1996, Congress responded to the still growing problem with even 
tougher mandatory minimums, by cutting in half the quantities 
of the substance that would trigger the 5- and 10-year 
mandatory minimums.
    In the meanwhile, the epidemic has grown exponentially, 
despite these ever increasing punitive measures passed by 
Congress. And States, unfortunately, have taken a similar 
approach: enacting harsher and harsher penalties, putting more 
and more emphasis on law enforcement. Yet they have had no more 
success than Congress with this approach.
    And a recent series of articles in the Oregonian newspaper 
reflected the frustrating results of this approach in Oklahoma. 
And Mr. Chairman, I ask unanimous consent to place this article 
in the record.
    Mr. Coble. Without objection.
    Mr. Scott. The article pointed out that while Oklahoma had 
great success in slashing the number of home meth labs through 
vigorous law enforcement, it failed to curb meth use. They 
found that in place of local labs, a massive influx of meth 
made by Mexican superlabs--where tons of the predicate, the 
precursor chemicals, can be obtained--had come into their 
locality. And this they found was cheaper and better quality 
than the locally made stuff.
    Despite the clear evidence that increasing penalties do not 
stem the spread or impact of meth, and despite the evidence 
that treatment does significantly decrease the problem, the 
response in this bill, yet again, is to increase mandatory 
minimum sentences even more.
    This bill would further lower the threshold amount of meth 
that triggers harsh mandatory minimums. The main problem with 
this approach is that it will actually make meth more 
available. This is because lowering the quantity threshold of 
triggering mandatory minimums will cause Federal prosecutors to 
concentrate even more on low-level offenders that are now being 
left to the States to prosecute. This will simply mean that we 
will be sentencing the same low-level offenders with longer 
sentences, including those who are tied up in conspiracy and 
attempt laws which punish bit players the same as kingpins.
    This is what we have seen with the so-called crack 
epidemic, where we are seeing that over two-thirds of those 
sentenced for crack are low-level offenders--generally, addicts 
dealing to supply their habit. And now, here we go in what Yogi 
Berra would say is ``deja vu all over again.''
    So Mr. Chairman, I look forward to the testimony of our 
witnesses. And I hope that they will enlighten us on proven 
ways to stem this problem; rather that simply doing what we 
always do: put low-level addicts in prison longer, while the 
problem continues on. I yield back.
    Mr. Coble. I thank the gentleman from Virginia. And we have 
been joined by the distinguished gentleman from Massachusetts, 
Mr. Bill Delahunt. Bill, good to have you with us as well.
    It is the practice of the Subcommittee, gentlemen, to swear 
in the witnesses, if you all will stand and raise your hands.
    [Witnesses sworn.]
    Mr. Coble. Let the record show that each of the witnesses 
answered in the affirmative. You may be seated.
    Today we have four distinguished witnesses before us, and 
we appreciate your attendance. And we appreciate, those in the 
audience, your attendance as well.
    Our first witness is the Honorable Mark Souder. 
Representative Souder serves the Third Congressional District 
in the State of Indiana. He was first elected to the Congress 
in 1994. He currently serves as Chairman of the Government 
Reform Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources.
    Prior to serving in Congress, Representative Souder worked 
for former U.S. Senator Dan Coates for 10 years. Last week, 
Representative Souder introduced H.R.3889, after conducting 
extensive hearings on the meth abuse issue.
    Our second witness is the Honorable Mark Kennedy. 
Representative Kennedy serves the Sixth Congressional District 
of the State of Minnesota, and was first elected to the 
Congress in 2000. He is currently a Member of the 
Transportation and Infrastructure Committee and the Financial 
Services Committee.
    Prior to serving in Congress, Representative Kennedy had a 
successful 20-year business career. And he also dedicated 
himself to meth abuse issues, and played a critical role in the 
formulation of the bill before us, H.R.3889.
    Our third witness is Joseph Rannazzisi, the Deputy Chief of 
the Office of Enforcement Operations at the Drug Enforcement 
Administration. Mr. Rannazzisi is also assigned the position of 
Acting-Deputy Assistant Administrator of the Office of 
Diversion Control. In this capacity, he oversees the office's 
effort to protect--detect and investigate the diversion of 
pharmaceutical controlled substances.
    Previously, he served as assistant special agent in charge 
at the DEA Detroit field office, and as section chief of the 
dangerous drugs and chemicals section, where he coordinated 
clandestine laboratory enforcement operations worldwide. He 
received a B.S. in pharmacy from Butler University, and a J.D. 
from the Michigan State University.
    Our final witness today is Dr. Barry Lester, professor of 
psychiatry and human behavior at Brown University School of 
Medicine. Dr. Lester is also director of the Brown Center for 
the Study of Children at Risk, and the Infant Development 
Center. He is currently a member of the National Institutes of 
Health's National Advisory Council on Drug Abuse, and the 
Family Treatment Drug Court Steering Committee.
    Previously, Dr. Lester worked as an assistant professor of 
pediatrics at the Harvard School of Medicine. He earned his 
undergraduate degree at Boston University, and his Ph.D. from 
the Michigan State University.
    And as I said earlier, gentlemen, good to have you all with 
us. And I want to apologize in advance. I must attend a Coast 
Guard homeland security briefing at five o'clock at the 
Transportation Committee, so I will be departing then. But do 
not mistake my departure for lack of interest in this very 
important subject. And I will follow up what I missed in the 
interim subsequently.
    Gentlemen, we adhere to the 5-minute rule here. And your 
first 4 minutes, you will see a green light in the panel before 
you. An amber light will then appear, advising you that you 
have 1 minute to go. At the end of that 5 minutes, then Mr. 
Scott and I will call the U.S. marshal to haul you into--I'm 
kidding you. [Laughter.]
    But if you could, adhere to that red light. When the red 
light appears, that is your indication that the 5 minutes have 
elapsed. We have read your written testimony, and will 
reexamine it.
    Again, we're delighted to have you all with us to address 
problems surrounding this very, very serious encounter that we 
face every day. And Mr. Souder, we will start with you.

  TESTIMONY OF THE HONORABLE MARK SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you, Mr. Chairman. And first, greetings 
from Indiana, where we buy your wonderful North Carolina 
furniture--that is, whatever isn't made in China--and also, 
supply you with basketball players, so you can look respectable 
in North Carolina. [Laughter.]
    Mr. Coble. Well, now, if the gentleman will suspend--and I 
won't penalize your time--the furniture, I hope, came from my 
district, the furniture capital of the world--or at least, it 
was last month.
    Mr. Souder. I thank the Chairman, and I thank you and 
Ranking Member Scott and Members of the Subcommittee for 
inviting me to testify on behalf of the Methamphetamine 
Epidemic Elimination Act. I believe this is a vital first step, 
a bipartisan step, and I hope the Subcommittee and the full 
Committee will support its passage.
    I could fill my whole time thanking different Members, but 
first I'd like to thank Chairman Sensenbrenner of the full 
Committee, and you, Chairman Coble, for co-sponsoring this bill 
and the assistance of your staff in putting this together. I'd 
also like to thank Majority Whip Roy Blunt for his co-
sponsorship, and Representative Mark Kennedy and Representative 
Darlene Hooley for providing much of the content of this bill 
and for their consistently strong leadership on the House floor 
on meth issues; as well as the four co-chairs of the 
Congressional Meth Caucus, Representative Rick Larsen, 
Representative Ken Calvert, Representative Leonard Boswell, and 
Representative Chris Cannon, for their and their staffs' 
assistance and support. And to every other Member who has co-
sponsored this bill, I express my deep appreciation.
    I don't have to tell you, and I'm not going to get into the 
details of the meth threat, but as Chairman of the Government 
Reform Subcommittee on Criminal Justice, we've held ten 
hearings since 2001, not only in Washington, D.C., but rural 
Arkansas, Ohio, Indiana, suburban and urban Minnesota, 
California, Hawaii, and urban Detroit. There are regional and 
local variations of the problem, but one thing remains 
constant: it's almost unique in its combination of cheapness, 
ease of manufacture, and devastating impact on the user and the 
community.
    There are three aspects we need to make sure that we look 
at when we're looking at these types of things. First, meth 
presents a unique challenge to Federal, State, and local law 
enforcement. It's toxic. It ties up local law enforcement, and 
causes lots of money to be spent in clean-up.
    Secondly, the damage this drug causes is not confined to 
the addict. It's terrible effects on everyone around the user, 
particularly children. California did the first child abuse law 
related to this; and child welfare agencies said 40 percent of 
child welfare in Saint Paul, Minnesota. We heard that it, from 
a standing start, in 12 months, went from zero to 80 percent of 
the kids in child protection were from meth parents.
    And I'd also like, with your permission, Mr. Chairman, to 
introduce the county survey that showed that it was the number 
one problem--their association survey--into the record, along 
with statements from two experts on the impact of meth on 
children that were provided to my Subcommittee in July.
    Mr. Coble. Without objection.
    Mr. Souder. The third major point is the meth threat is not 
confined to small local labs, but extends well beyond our 
borders to the superlabs controlled by large, sophisticated 
Mexican drug trafficking organizations and the international 
trade in pseudoephedrine and other precursor chemicals fueling 
those superlabs.
    As Mr. Scott mentioned, you can't just push one, or you'll 
go over to the other. You have to have a combination strategy. 
Any legislation that tries to deal with the meth threat must 
address all these critical aspects.
    After meeting with Chairman Wolf, who after reading a 
couple of amendments on the House floor said, ``Let's see if we 
can do something in combination, tie it to the appropriations 
bills, because we know they have to pass the Senate, and we 
need to take some meth action this year.'' After meeting with 
him and a bipartisan group of nearly 20 other Members in my 
office who are deeply concerned about this, we worked with my 
Subcommittee, with the meth caucus, as well as your Committee 
and other authorizing Committees to come up with this package.
    It includes the following four basic categories: First, 
close a number of loopholes in Federal regulation of meth 
precursor chemicals, such as pseudoephedrine, including a per-
transaction sales limit; import and manufacturing quotas, to 
ensure no oversupply leads to diversion. Mexico is pouring in 
huge amounts over what they need; regulation of the wholesale 
spot market.
    A second is, require reporting of major meth precursor 
exporters and importers, and would hold them accountable for 
their efforts to prevent diversion to meth production.
    Three, toughen Federal penalties against meth traffickers 
and smugglers--has nothing to do with possession; only 
possession with intent to traffic.
    Four, apply environmental regulations to those who harm the 
environment and endanger human health through meth lab 
operation.
    Each of these are vital. But we need to remember, we did 
not address two things. We do not address the issue of 
pseudoephedrine or similar chemical products that should be 
added to Schedule V. I have personal reservations with this, 
but this bill is silent on this, and it could be in combination 
with that or not.
    Secondly, we did not include any significant new grant 
programs for State and local agencies to deal with meth. I 
believe we need to do more in treatment. I believe we need to 
do more in multiple areas. This is the Judiciary Committee. 
You're not in the grant business. And we need to look at how to 
do more; as we do drug treatment, how to make some of that 
targeted toward meth. That I agree with, but this isn't the 
bill to do that.
    I yield back the balance.
    [The prepared statement of Mr. Souder follows:]

Prepared Statement of the Honorable Mark E. Souder, a Representative in 
                   Congress from the State of Indiana

    Chairman Coble, Ranking Member Scott, and Members of the 
Subcommittee, thank you for inviting me to testify in support of H.R. 
3889, the ``Methamphetamine Epidemic Elimination Act.'' I believe this 
bipartisan bill is a vital first step in our renewed fight against the 
scourge of methamphetamine trafficking and abuse, and I hope the 
Subcommittee and full Committee will support its passage.
    I would probably fill my entire five minutes if I tried to thank 
each of the Members and staff who helped with this legislation, so I 
will have to mention only a few. First, I'd very much like to thank 
Chairman Sensenbrenner of the full Committee, and you, Chairman Coble, 
for cosponsoring the bill and for the assistance your staff provided in 
putting it together. Next, I'd like to thank Majority Whip Roy Blunt 
for his cosponsorship; Rep. Mark Kennedy and Rep. Darlene Hooley for 
providing much of the content of this bill, and for their consistently 
strong leadership on the House floor on meth issues; and the four co-
chairs of the Congressional Meth Caucus, Rep. Rick Larsen, Rep. Ken 
Calvert, Rep. Leonard Boswell, and Rep. Chris Cannon, for their and 
their staff's assistance and support. And to every other Member who has 
cosponsored the bill, I express my deep appreciation.
    I don't have to tell any of you how serious a threat meth is for 
our communities; pick up almost any newspaper or magazine these days 
and you can read about it firsthand. As chairman of the Government 
Reform Committee's Subcommittee on Criminal Justice, Drug Policy and 
Human Resources, I have held ten hearings on the meth epidemic since 
2001, not only in Washington, D.C., but in places as diverse as rural 
Arkansas, Ohio, and Indiana, suburban Minnesota, island Hawaii, and 
urban Detroit. There are regional and local variations on the problem, 
of course, but one thing remains constant everywhere: this is a drug 
almost unique in its combination of cheapness, ease of manufacture, and 
devastating impact on the user and his or her community.
    There are three aspects of the meth epidemic that I believe need to 
be emphasized as Congress considers this and related legislation. 
First, meth presents unique challenges to federal, state, and local law 
enforcement. The small, clandestine meth labs that have spread like 
wildfire across our nation produce toxic chemical byproducts that 
endanger officers' lives, tie up law enforcement resources for hours or 
even days, and cost tremendous amounts of money to clean up. That, 
combined with the rise in criminal behavior, child and citizen 
endangerment, and other effects, have made meth the number one drug 
problem for the nation's local law enforcement agencies, according to a 
study released over the summer by the National Association of Counties, 
which I'd like to enter into the record.\1\
---------------------------------------------------------------------------
    \1\ National Association of Counties (NAoC) survey, ``The Criminal 
Effect of Meth on Communities,'' July 5, 2005.
---------------------------------------------------------------------------
    Second, the damage this drug causes is not confined to the addict 
alone; it has terrible effects on everyone around the user, 
particularly children. Another survey by the National Association of 
Counties found that 40 percent of child welfare agencies reported an 
increase in ``out of home placements because of meth in the past 
year.'' \2\ This abuse unfortunately includes physical and mental 
trauma, and even sexual abuse. 69 percent of county social service 
agencies have indicated that they have had to provide additional, 
specialized training for their welfare system workers and have had to 
develop new and special protocols for workers to address the special 
needs of the children affected by methamphetamine.\3\ With your 
permission, Mr. Chairman, I'd like to introduce the Association's 
survey into the record, together with the statements of two experts on 
the impact of meth on children, which were provided to my subcommittee 
in July. They illustrate how community health and human services, as 
well as child welfare services such as foster-care, are being 
overwhelmed as a result of meth.\4\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Ibid.
    \4\ Statements of Laura J. Birkmeyer, Chair, National Alliance for 
Drug Endangered Children, and Director, National Methamphetamine 
Chemicals Initiative; and Freida S. Baker, MSW, Deputy Director, Family 
and Children's Services, Alabama State Department of Human Resources; 
presented to the Subcommittee on Criminal Justice, Drug Policy and 
Human Resources, July 26, 2005.
---------------------------------------------------------------------------
    Finally, the meth threat is not confined to the small, local labs, 
but extends well beyond our borders to the ``super labs'' controlled by 
large, sophisticated Mexican drug trafficking organizations, and the 
international trade in pseudoephedrine and other precursor chemicals 
fueling those super labs. Three-quarters or more of our nation's meth 
supply is controlled by those large organizations, and over half of our 
meth comes directly from Mexico. With your permission, I'd also like to 
introduce an excellent group of articles from the Oregonian newspaper 
that detail the international aspects of the meth trade.\5\
---------------------------------------------------------------------------
    \5\ ``The Mexican Connection,'' and ``Mexico's Math Problem Adds Up 
to a U.S. Meth Problem,'' Steve Suo, the Oregonian, June 5, 2005.
---------------------------------------------------------------------------
    Any legislation that tries to deal with the meth threat must 
address these critical aspects, and we have tried to do that in this 
legislation. We began the process of drafting the bill several months 
ago, when Chairman Frank Wolf of the Appropriations Committee's 
Science-State-Justice-Commerce Subcommittee approached me on the House 
floor and offered his assistance in passing anti-meth legislation. 
After meeting with him and nearly twenty other Members who are deeply 
concerned about the meth epidemic, I asked my subcommittee staff, after 
consultation with staff for the Meth Caucus Members, as well as the 
relevant authorizing committees, to assemble a package of proposals 
that would enjoy strong, bipartisan support. That package ultimately 
became this bill.
    I've attached a detailed section-by-section analysis to my written 
statement for your review, so I will briefly mention the highlights of 
the bill. Among other things, the Act would:

        <bullet>  close a number of loopholes in federal regulation of 
        meth precursor chemicals such as pseudoephedrine, including a 
        per-transaction sales limit; import and manufacturing quotas to 
        ensure no oversupply leads to diversion; and regulation of the 
        wholesale ``spot market'';

        <bullet>  require reporting of major meth precursor exporters 
        and importers, and would hold them accountable for their 
        efforts to prevent diversion to meth production;

        <bullet>  toughen federal penalties against meth traffickers 
        and smugglers; and

        <bullet>  apply environmental regulations to those who harm the 
        environment and endanger human health through meth lab 
        operation.

    Each of these steps is vital to our success in the fight against 
meth, and I hope that the Subcommittee and the full Committee will 
support them.
    Finally, I'd like to say a word or two about two key issues not 
addressed in the bill. First, we did not address the issue of whether 
pseudoephedrine and similar chemical products should be added to 
Schedule V of the federal Controlled Substances Act. The Schedule V 
issue is already dealt with by the Combat Meth Act (H.R. 314 / S. 103), 
and thus there was no need for us to include it in our legislation. I 
myself have some concerns about the Schedule V approach, which I 
believe may have unintended consequences for consumers, retailers, and 
the health care system. However, I look forward to working with Mr. 
Blunt and other supporters of that legislation to see if we can forge a 
workable solution.
    Second, we did not include significant new grant programs for state 
and local agencies to deal with meth, nor did we attempt to amend or 
revise existing grant programs. I do believe that Congress must address 
the question of how best to help our beleaguered state and local law 
enforcement, child welfare, and treatment and prevention agencies deal 
with this incredibly destructive and expensive drug threat. That issue 
is very complex, however, and will require extensive review by the 
authorizing committees before it can be resolved.
    Mr. Chairman, every one of us, regardless of where we come from, 
has a stake in the outcome of this fight. We have to stop the meth 
epidemic from spreading, and we need to start rolling it back. I 
believe that H.R. 3889 will be an important step in that process. Thank 
you again for the opportunity to testify here today, and I would be 
happy to answer any questions that you and the other Members may have.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. I thank the gentleman from Indiana.
    The gentleman from Minnesota, Mr. Kennedy.

 THE HONORABLE MARK KENNEDY, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MINNESOTA

    Mr. Kennedy. Chairman Coble, Ranking Member Scott----
    Mr. Coble. Mr. Kennedy, if you would suspend just a minute, 
we've been joined by the gentleman from Florida, Mr. Feeney, 
and the distinguished gentleman from Ohio, Mr. Chabot.
    Mr. Kennedy. And the Members of the Committee, I'd like to 
thank you first of all for holding this hearing on a very 
important issue, the Methamphetamine Epidemic Elimination Act. 
I'd also like to thank Chairman Sensenbrenner and Chairman 
Souder for his interest in this.
    This bipartisan legislation, sponsored by Representatives 
Souder, Sensenbrenner, Blunt, and myself and others, is one of 
the most significant pieces of legislation that has been 
offered to respond comprehensively to the scourge of 
methamphetamine.
    Mr. Chairman, our communities face many challenges, from 
keeping our kids safe in our neighborhoods to the war on 
terrorism; but few have such immediate consequences as we face 
with meth. For years, meth's threat has been underestimated. It 
is now clear to almost everyone that meth threatens lives, 
safety, and health, at great cost to all of us.
    A recent study by the University of Illinois conveyed 
shocking stories of 10-year-old children becoming surrogate 
parents to their younger siblings, as their parents cycled 
through day-long highs, often accompanied by psychotic 
symptoms, followed by crashes and days of sleep. According to 
the Illinois study, the children of alcoholics were said to 
have a thunderstorm of problems, but the children of meth 
addicts suffer a tornado of trauma. They are at an 
extraordinary level of risk of mental health and substance 
abuse disorders.
    Parents making the drug in their homes have exposed their 
children to toxic fumes and the danger of explosions or fires. 
Some ask their children to steal items needed for making of 
meth, or to stand guard, armed with a gun, looking out for 
police and other authorities.
    Mr. Chairman, I have often spoken about the tragic story of 
a young girl named Megan, from a beautiful town in my home 
State of Minnesota. Megan got started on meth when she was in 
seventh grade, at the age of 13. One of her friends offered her 
the drug and, in her words, she liked meth so much that she 
knew she would do it again and again.
    Well, when she became--when she couldn't afford her 
addiction, she, like so many other female addicts, was 
exploited into becoming a prostitute to pay for the meth she 
craved every second of the day. After hitting bottom at age 18, 
Megan has managed to pull her life together now, after the 5 
years that meth stole from her. But she has too much company in 
her treatment and addiction programs.
    About one in five of those treated for methamphetamine use 
in the State of Minnesota are 17 years old or younger. As 
Members of Congress, in the face of so much suffering, we have 
an obligation to act. This bill brings together a number of 
proposals made by many of my colleagues to fight this 
devastating scourge.
    I am pleased that H.R.3889 includes provisions I drafted to 
increase criminal penalties on meth pushers, to target the 
international superlabs that are the source of so much of this 
poison, and language from my Clean Up Meth Act to assist 
communities in dealing with the environmental destruction from 
meth production.
    Mr. Chairman, I thank you for holding this hearing here 
today. I'd like to thank again the witnesses who agreed to come 
to speak about the ravages of methamphetamine. I urge the swift 
passage of this important legislation. Doing so will send a 
strong signal that Congress is serious about fighting the 
scourge of meth.
    We must send a signal to the pushers of this poison that 
they are not welcome in our communities. Most importantly, we 
must send a signal to the law enforcement officers who wake up 
every morning to protect our families that we stand with them 
in the fight against drugs, and will work to give them every 
tool they need to be successful.
    Mr. Chairman, I ask for my full statement to be made part 
of the record, and yield back the remainder of my time.
    [The prepared statement of Mr. Kennedy follows:]

 Prepared Statement of the Honorable Mark Kennedy, a Representative in 
                 Congress from the State of Minnestora

    Chairman Coble, Chairman Sensenbrenner, Ranking Member Scott, 
Members of the Subcommittee, I'd like to begin by thanking you for 
holding this hearing on H.R. 3889, the Methamphetamine Epidemic 
Elimination Act.
    This bipartisan legislation, sponsored by Reps. Souder, 
Sensenbrenner, Blunt and myself is one of the most significant pieces 
of legislation that has been offered to respond comprehensively to the 
scourge of methamphetamine.
    Mr. Chairman, there are 128 members in the Congressional Caucus to 
Fight Methamphetamine; these members represent districts all across 
this country.
    They know that methamphetamine is no longer a western problem or a 
rural problem; it is a problem that has infiltrated every corner of 
virtually every Member's district in this country.
    Mr. Chairman, our communities face many challenges, from keeping 
our kids safe in our neighborhoods to the war on terrorism.
    But few have such immediate consequences as we face from meth. For 
years, meth's threat was underestimated. It is now clear to almost 
everyone: meth threatens lives, safety and health, at great cost to all 
of us.
    A recent study by the University of Illinois conveyed shocking 
stories of 10-year-old children becoming surrogate parents to their 
younger siblings as their parents cycled through days-long highs, often 
accompanied by psychotic symptoms, followed by crashes and days of 
sleep.
    This study provided shocking evidence of the devastating effect of 
meth on our children. The children of alcoholics were said to have 
``thunderstorm'' of problems, but the children of meth addicts suffer a 
``tornado'' of trauma. They are at an extraordinary level of risk of 
mental health and substance abuse disorders.
    Parents making the drug in their homes exposed their children to 
toxic fumes and the danger of explosions or fires. Some asked their 
children to steal items needed for making the drug or to stand guard, 
armed with a gun, looking out for police or other authorities.
    Mr. Chairman, I've often spoken before about the tragic story of a 
young girl named Megan from a beautiful town in my home state of 
Minnesota.
    Megan got started on meth when she was in the 7th grade at the age 
of 13.
    One of her friends offered her the drug, and in her words, she 
liked meth so much that she knew she would do it again and again.
    But when she couldn't afford her addiction, she, like too many 
other female addicts, was exploited into becoming a prostitute to pay 
for the meth she craved every second of the day.
    After hitting rock bottom at the age of 18, Megan is managing to 
pull her life back together now after the 5 years meth stole from her.
    But she has too much company in her treatment and addiction 
programs: about one in five of those treated for methamphetamine use in 
the state of Minnesota are 17 years old or younger.
    As Members of Congress, in the face of so much suffering, we have 
an obligation to act.
    The Methamphetamine Epidemic Elimination Act brings together a 
number of proposals made by many of our colleagues to fight this 
devastating scourge.
    This legislation provides increased regulation of methamphetamine 
precursors, particularly pseudoephedrine; important tools to control 
the international superlabs; enhanced criminal penalties against 
methamphetamine kingpins and manufacturers; and greater attention to 
the environmental impact of domestic clandestine methamphetamine 
production labs.
    I have worked with Representative Darlene Hooley of Oregon on many 
of the significant criminal penalties in this legislation in our bill, 
H.R. 3513, the Solutions to Limit the Abuse of Methamphetamine, or 
SLAM, Act.
    We both believe that we must make sure that traffickers in meth are 
too scared by the prospect of long prison sentences to ever try to push 
this poison on our kids again.
    Additionally, I can tell you from the experience of law enforcement 
in my home state of Minnesota, and in many other states dealing with 
the meth problem, local law enforcement spends roughly 80 percent of 
its time fighting small meth labs that produce only 20 percent of the 
meth on our streets. However, they lack the tools and resources to go 
after the source of the other 80 percent of the meth, international 
super labs.
    Mr. Chairman, H.R. 3889 includes language I offered in an amendment 
to the FY06 State Department Authorization Act that was supported by 
the House International Relations Committee and 423 members of the 
House.
    This language will bring some of the same weapons to bear on the 
international superlabs that produce methamphetamine that have proven 
successful and effective in controlling other natural drugs like heroin 
and cocaine.
    This language serves to update, in an important way, our foreign 
policy to recognize the emergence of methamphetamine and other 
manufactured drugs.
    Mr. Chairman, I thank you for holding this hearing here today, and 
I'd like to again thank the witnesses who agreed to come to speak about 
the ravages of methamphetamine.
    I urge the swift passage of this important legislation.
    Doing so will send a strong signal that Congress is serious about 
fighting the scourge of meth.
    We must send a signal to the pushers of this poison that they are 
not welcome in our communities.
    Most importantly, we must send a signal to the law enforcement 
officers who wake up every morning to protect our families that we 
stand with them in the fight against drugs and will work to give them 
every tool they need to be successful.
    Thank You.

    Mr. Coble. Mr. Rannazzisi and Dr. Lester, you two have been 
placed in the bull's eye of the target, because both these guys 
beat the red light. So the pressure is on you. [Laughter.]
    Mr. Rannazzisi, it's good to have you with us, sir.

  TESTIMONY OF JOSEPH T. RANNAZZISI, DEPUTY CHIEF, OFFICE OF 
  ENFORCEMENT OPERATIONS, U.S. DRUG ENFORCEMENT ADMINISTRATION

    Mr. Rannazzisi. Thank you very much, sir. Chairman Coble, 
Ranking Member Scott, and distinguished Members of the House 
Judiciary Committee, Subcommittee on Crime, Terrorism, and 
Homeland Security, on behalf of the Drug Enforcement 
Administration's Administrator, Karen P. Tandy, I appreciate 
your invitation to testify today regarding the DEA's efforts to 
combat the manufacture and distribution of methamphetamine and 
its precursor chemicals, in H.R.3889, the ``Methamphetamine 
Epidemic Elimination Act.''
    Methamphetamine has swept across the country, and its 
devastating consequences are being felt throughout this nation 
by innocent children and adults, governmental agencies, 
businesses, and communities of all sizes. Methamphetamine found 
in the United States originates from two general sources, 
controlled by two distinct groups.
    Mexico-based and California-based drug trafficking 
organizations control superlabs, and produce the majority of 
methamphetamine available in this country. The second source 
for methamphetamine comes from small toxic labs, which 
supplement the supply of this drug in the United States. Though 
these labs produce relatively small amounts of methamphetamine 
and are generally not affiliated with major drug trafficking 
organizations, they have an enormous impact on local 
communities, especially in rural areas.
    A precise breakdown is not available, but current drug and 
lab seizure data suggests that roughly two-thirds of the 
methamphetamine used in the U.S. comes from larger labs, 
increasingly outside of the U.S., and that approximately one-
third of the methamphetamine consumed in this country comes 
from the small toxic labs.
    In an effort to combat methamphetamine, the DEA 
aggressively targets those who traffic in and manufacture this 
dangerous drug, as well as those who traffic in the chemicals 
utilized to produce it. We have initiated and led successful 
enforcement efforts focusing on meth and its precursor 
chemicals, that have dismantled and disrupted high-level 
methamphetamine traffic organizations, as well as dramatically 
reduced the amount of pseudoephedrine illegally entering our 
country.
    We are also working with our global partners to target 
international methamphetamine traffickers, and have forged 
agreements to pre-screen pseudoephedrine shipments to ensure 
that they are being shipped to legitimate companies for 
legitimate purposes.
    As a result of our efforts and those of our law enforcement 
partners in the U.S. and Canada, we have seen a dramatic 
decline in methamphetamine superlabs in the U.S. This decrease 
is largely a result of DEA's enforcement successes against 
suppliers of bulk shipments of precursor chemicals; notably, 
ephedrine and pseudoephedrine. Law enforcement has also seen a 
huge reduction in the amount of pseudoephedrine, ephedrine, and 
other precursor chemicals seized at the Canadian border.
    We are also working closely with our State and local law 
enforcement partners to assist in the elimination of the small 
toxic labs that have spread across the country. The DEA 
administers the clean-up of the majority of meth labs seized in 
this country, with approximately 10,000 last year alone.
    In an effort to further streamline the clean-up process and 
reduce costs, with the assistance of the Community Oriented 
Policing program, ``COPS,'' in fiscal year 2004 we joined the 
Kentucky state police in initiating a container program. This 
container program has further reduced clean-up costs, and we 
plan to expand the program to other States during fiscal year 
2006.
    More than any other controlled substance, methamphetamine 
trafficking endangers children through the exposure of drug 
abuse, neglect, physical and sexual abuse, toxic chemicals, 
hazardous waste, fire, and explosions. We are providing 
assistance to methamphetamine's victims through our Victim 
Witness Assistance Program. Through this program, the DEA's 
goal is to ensure that all endangered children are identified, 
and that the child's immediate safety is addressed at the scene 
by appropriate child welfare and health care providers.
    In an effort to provide further information to America's 
youth about the dangers of methamphetamine, last month DEA 
launched a new website entitled ``justthinktwice.com.'' This 
website is devoted to and designed by teenagers to give them 
the hard facts about methamphetamine and other illicit drugs.
    The DEA also monitors State legislation aimed at combatting 
methamphetamine. It has noted the success experienced by some 
States in reducing the number of small toxic labs within their 
borders. The Administration strongly supports the development 
of Federal legislation to fight methamphetamine production, 
trafficking, and abuse.
    Effective Federal legislation would include an individual 
purchase limit of 3.6 grams for transactions for retail sales 
of products containing pseudoephedrine; elimination of the 
blister pack exemption for pseudoephedrine products, thus 
requiring all products containing this substance to be subject 
to Federal law regardless of the packaging; and to prevent 
diversion of pseudoephedrine shipments for illegal use, a 
requirement that importers of pseudoephedrine request and 
receive approval from the DEA if there is a change to the 
shipment's original purchaser.
    Thank you for your recognition of this important issue and 
the opportunity to testify today. I'll be happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Rannazzisi follows:]

               Prepared Statement of Joseph T. Rannazzisi

    Chairman Coble, Representative Scott, and distinguished members of 
the House Judiciary Committee--Subcommittee on Crime, Terrorism, and 
Homeland Security, on behalf of the Drug Enforcement Administration's 
(DEA) Administrator, Karen Tandy, I appreciate your invitation to 
testify today regarding the ``Methamphetamine Epidemic Elimination 
Act.'' I am pleased to testify here today.

                                OVERVIEW

    Methamphetamine's devastating consequences are felt across the 
country by innocent children and adults, governmental agencies, 
businesses and communities of all sizes. More commonly known as 
``meth,'' this highly addictive stimulant can be easily manufactured 
using ``recipes'' available over the Internet and ingredients available 
at most major retail outlets. While meth used to be associated only 
with a few outlaw motorcycle gangs (OMG), the use and manufacturing of 
this deadly substance is now a national problem. Today, few communities 
in the United States have not been impacted by methamphetamine.
    In an effort to combat methamphetamine, the DEA aggressively 
targets those who traffic in and manufacture this dangerous drug, as 
well as those who traffic in the chemicals utilized to produce it. We 
have initiated and led successful enforcement efforts focusing on meth 
and its precursor chemicals. Every day the DEA works side by side with 
our federal, state and local law enforcement partners to combat the 
scourge of meth. Last spring, DEA Administrator Tandy directed DEA's 
Mobile Enforcement Teams (MET) to prioritize methamphetamine 
trafficking organizations during their deployments. These and other 
initiatives have resulted in tremendously successful investigations, 
that have dismantled and disrupted high-level methamphetamine 
trafficking organizations, as well as dramatically reduced the amount 
of pseudoephedrine illegally entering our country.
    In addition to our enforcement efforts, the DEA is combating this 
drug by administering the cleanup of labs across the country, providing 
assistance to the victims of methamphetamine and educating communities 
on the dangers of this drug. The DEA also monitors state legislation 
aimed at combating methamphetamine and has noted the success 
experienced by some states in reducing the number of small toxic labs 
within their borders. Additionally, the Administration supports the 
development of Federal legislation to fight methamphetamine production, 
trafficking and abuse. Any such legislation should of course balance 
law enforcement needs with the need for legitimate consumer access to 
widely used cold medicines.

                      METHAMPHETAMINE IN THE U.S.

    Methamphetamine is a synthetic central nervous system stimulant 
that is classified as a Schedule II controlled substance. It is widely 
abused throughout the United States and is distributed under the names 
``crank,'' ``meth,'' ``crystal,'' and ``speed.'' Methamphetamine is 
commonly sold in powder form, but has been distributed in tablets or as 
crystals (``glass'' or ``ice''). Methamphetamine can be smoked, 
snorted, injected or taken orally. The clandestine manufacture of 
methamphetamine has been a concern of law enforcement officials since 
the 1960's, when OMGs produced their own methamphetamine in labs and 
dominated distribution in the United States. While clandestine labs can 
produce other types of illicit drugs such as PCP, MDMA, and LSD, 
methamphetamine has always been the primary drug manufactured in the 
vast majority of drug labs seized by law enforcement officers.

              STATE APPROACHES TO CONTROL METHAMPHETAMINE

    As was discussed in the Interim Report from the National Synthetic 
Drugs Action Plan, the only two states that had enacted legislation 
from which we had reliable data at the time, were Oklahoma and Oregon. 
During April 2004, Oklahoma enacted the first and at that time, the 
most far-reaching state law restricting the sale of pseudoephedrine 
products. To date, over forty States have enacted or proposed various 
laws to restrict the sale of pseudophedrine products. This law made 
pseudoephedrine a Schedule V Controlled Substance in Oklahoma. 
Provisions of this law included: limiting sales of both single-entity 
and combination pseudoephedrine products to pharmacies; requiring 
pseudoephedrine products to be kept behind the pharmacy counter; and 
requiring the purchaser to show identification and sign a log sheet.
    Oklahoma's law was noted in the National Synthetic Drugs Action 
Plan and was the first of many similar proposals introduced in State 
legislatures this past year. The Interim Report of May 2005 again noted 
Oklahoma's law, as well as Oregon's approach. In October 2004, Oregon 
adopted a similar approach to Oklahoma's model through a temporary 
administrative rule. Oregon, unlike Oklahoma, allowed combination 
pseudoephedrine products--those containing pseudoephedrine plus other 
active medical ingredients--to be sold at stores other than pharmacies, 
provided that the products were kept in a secure location. At the time 
of the Interim Report's release, only four months of data from Oregon 
were available for review. This review showed an approximate 42 percent 
reduction in the number of labs seized from the same months in the 
prior year. A review of 12 months worth of data from Oklahoma showed a 
51 percent reduction in lab seizures (April 2004 through March 
2005).\1\
---------------------------------------------------------------------------
    \1\ p.6, Interim Report.
---------------------------------------------------------------------------
    The Interim Report noted that, even with the stabilization in 
methamphetamine laboratory numbers observed nationally, no states with 
consistently significant numbers of methamphetamine labs have seen the 
reductions in lab numbers that Oklahoma and, to a lesser but still 
significant extent, Oregon had seen. The Interim Report stated that, 
with the available data--a year's worth of data from Oklahoma, four 
months of data from Oregon, and several years worth of national data--
strongly suggested that Oklahoma's and Oregon's state-level approaches 
were probably primary reasons for the dramatic reduction in the number 
of small toxic labs (STL) in Oklahoma, as well as smaller reductions in 
Oregon. It should also be noted that since the release of the Interim 
Report, Oregon has enacted legislation that made pseudoephedrine a 
Schedule III Controlled Substance.
    Since the release of the Interim Report, the seizure of meth labs 
in Oklahoma has continued to remain at low levels, with a total of 115 
meth labs being seized from April through July 2005.\2\ The seizure of 
these 115 labs is significantly less than the seizures reported in 
Oklahoma during this same time period in 2004 (261) and 2003 (423).
---------------------------------------------------------------------------
    \2\ Oklahoma Bureau of Narcotics and Dangerous Drugs, August 2005.
---------------------------------------------------------------------------
    Furthermore, the State of Oregon has recently enacted legislation 
that classifies pseudoephedrine as a Schedule III Controlled Substance. 
This law is not scheduled to fully go into effect until July of 2006, 
so data does not yet exist to draw any conclusions as to its 
effectiveness.

              METHAMPHETAMINE THREAT ASSESSMENT AND TRENDS

    Methamphetamine found in the United States originates from two 
general sources, controlled by two distinct groups. Most of the 
methamphetamine in the United States is produced by Mexico-based and 
California-based Mexican drug trafficking organizations. These drug 
trafficking organizations control ``super labs'' and produce the 
majority of methamphetamine available throughout the United States. 
Mexican criminal organizations control most mid-level and retail 
methamphetamine distribution in the Pacific, Southwest, and West 
Central regions of the United States, as well as much of the 
distribution in the Great Lakes and Southeast regions. Mexican midlevel 
distributors sometimes supply methamphetamine to OMGs and Hispanic 
gangs for retail distribution throughout the country.
    Asian methamphetamine distributors (Filipino, Japanese, Korean, 
Thai, and Vietnamese) are also active in the Pacific region, although 
Mexican criminal groups trafficking in ``ice methamphetamine'' have 
supplanted Asian criminal groups as the dominant distributors of this 
drug type in Hawaii. OMGs distribute methamphetamine throughout the 
country, and reporting indicates that they are particularly prevalent 
in many areas of the Great Lakes region, New England, and New York/New 
Jersey regions.
    The second source for methamphetamine comes from STLs, which 
supplement the supply of methamphetamine in the United States Initially 
found only in the most Western States, there has been a steady increase 
and eastward spread of STLs in the United States. Many methamphetamine 
abusers quickly learn that the drug is easily produced and that it can 
be manufactured using common household products found at retail stores. 
For approximately $100 in ``materials,'' a methamphetamine ``cook'' can 
produce approximately $1,000 worth of this poison. Items such as rock 
salt, battery acid, red phosphorous road flares, pool acid, and iodine 
crystals can be used as a source of the necessary chemicals. Precursor 
chemicals such as pseudoephedrine can be extracted from common, over-
the-counter cold medications, regardless of whether it is sold in 
liquid, gel, or pill form. Using relatively common items such as mason 
jars, coffee filters, hot plates, pressure cookers, pillowcases, 
plastic tubing and gas cans. A clandestine lab operator can manufacture 
meth almost anywhere without the need for sophisticated laboratory 
equipment.
    Widespread use of the internet has facilitated the dissemination of 
technology used to manufacture methamphetamine in STLs. This form of 
information sharing allows wide dissemination of these techniques to 
anyone with computer access. Aside from marijuana, methamphetamine is 
the only widely abused illegal drug that is capable of being produced 
by the abuser. Given the relative ease with which manufacturers are 
able to acquire ``recipes'' and ingredients, and the unsophisticated 
nature of the production process, it is not difficult to see why this 
highly addictive drug has spread across America.
    STLs produce relatively small amounts of methamphetamine and are 
generally not affiliated with major drug trafficking organizations. 
However, STLs have an enormous impact on local communities, especially 
in rural areas.
    A precise breakdown is not available, but current drug and lab 
seizure data suggests that roughly two-thirds of the methamphetamine 
used in the United States comes from larger labs, located outside the 
United States, and that approximately one-third of the methamphetamine 
consumed in this country comes from the small, more toxic laboratories.

          BATTLING METHAMPHETAMINE AND ITS PRECURSOR CHEMICALS

    As a result of our efforts and those of our law enforcement 
partners in the U.S. and Canada, we have seen a dramatic decline in 
methamphetamine super labs in the U.S. In 2004, 55 super labs were 
seized in the United States, the majority of which were in California. 
This is a dramatic decrease from the 246 super labs seized in 2001. 
This decrease is largely a result of DEA's enforcement successes 
against suppliers of bulk shipments of precursor chemicals, notably 
ephedrine and pseudoephedrine. Law enforcement has also seen a huge 
reduction in the amount of pseudoephedrine, ephedrine, and other 
precursor chemicals seized at the Canadian border.
    More than any other controlled substance, methamphetamine 
trafficking endangers children through exposure to drug abuse, neglect, 
physical and sexual abuse, toxic chemicals, hazardous waste, fire, and 
explosions. An appalling example of methamphetamine-related abuse was 
discovered by the DEA in Missouri during November 2004. During an 
enforcement operation targeting a suspected methamphetamine laboratory 
located in a home, three children, all less than five years of age, 
were found sleeping on chemical-soaked rugs. The residence was filled 
with insects and rodents and had no electricity or running water. 
Ironically, two guard dogs kept by the ``cooks'' to fend off law 
enforcement were also found: clean, healthy, and well-fed. The dogs 
actually ate off a dinner plate.
    Since being implemented in 1992, the DEA has enhanced its Victim 
Witness Assistance Program, and each of our Field Divisions now has a 
Victim/Witness Coordinator to ensure that all endangered children are 
identified and that the child's immediate safety is addressed at the 
scene by appropriate child welfare and health care providers. 
Assistance has also been provided to vulnerable adults, victims of 
domestic violence, and to customers and employees of businesses such as 
hotels and motels where methamphetamine has been produced or seized.
    We also provide training on drug endangered children to federal, 
state, and local law enforcement and to national, state and local 
victim organizations. The DEA serves as a resource for child protective 
service and school social workers, first responders, mail carriers, and 
utility company personnel, all of whom may come in contact with labs 
and victims. To provide the public with current information on 
methamphetamine and drug endangered children, the DEA participates in 
numerous local, state, and national conferences and exhibits. The issue 
of victim services is included as part of our Basic Agent Training, and 
also is presented to our management across the country.
    We have continued to investigate, disrupt and dismantle major 
methamphetamine trafficking organizations through the Consolidated 
Priority Organization Target (CPOT) list and our Priority Target 
Organization (PTO) investigations. The DEA is also significantly 
involved in the Organized Crime Drug Enforcement Task program (OCDETF) 
and we continue to work with state and local law enforcement agencies 
across the country to combat methamphetamine. Additionally, in March 
2005, Administrator Tandy directed the DEA's MET teams to prioritize 
methamphetamine trafficking organizations during their deployments.
    In an effort to provide further information to America's youth 
about the dangers of methamphetamine, on August 30, 2005, the DEA 
launched a new website entitled ``justthinktwice.com.'' This website is 
devoted to and designed by teenagers to give them the hard facts about 
methamphetamine and other illicit drugs. Through this website, the DEA 
is telling teens to ``think twice'' about what they hear from friends, 
popular culture, and adults who advocate drug legalization. Information 
is also provided regarding the harm drugs cause to their health, their 
families, the environment, and to innocent bystanders.
    The DEA also continues its work to ensure that only legitimate 
businesses with adequate chemical controls are licensed to handle bulk 
pseudoephedrine and ephedrine in the United States. In the past seven 
years, over 2,000 chemical registrants have been denied, surrendered, 
or withdrawn their registrations or applications as a result of DEA 
investigations. Between 2001 and 2004, DEA Diversion Investigators 
physically inspected more than half of the 3,000 chemical registrants 
at their places of business. We investigated the adequacy of their 
security safeguards to prevent the diversion of chemicals to the 
illicit market, and audited their recordkeeping to ensure compliance 
with federal regulations.
    The DEA is also working with our global partners to target 
international methamphetamine traffickers and to increase chemical 
control efforts abroad. The DEA has worked hand in hand with our 
foreign law enforcement counterparts and have forged agreements to pre-
screen pseudoephedrine shipments to ensure that they are being shipped 
to legitimate companies for legitimate purposes. An example of our 
efforts in this area is an operation worked with our counterparts from 
Hong Kong, Mexico and Panama, which prevented approximately 68 million 
pseudoephedrine tablets from reaching ``meth cartels.'' This 
pseudoephedrine could have produced more than two metric tons of 
methamphetamine.

  COMMENTS REGARDING THE ``METHAMPHETAMINE EPIDEMIC ELIMINATION ACT''

    As you can see, the DEA has known and has been working on the meth 
crisis for many years. We appreciate Congress' interest in this issue, 
and, without endorsing the specific legislative language of the bill, 
would like to offer some general observations regarding the 
``Methamphetamine Epidemic Elimination Act.''

Title I--Domestic Regulation of Precursor Chemicals
    This title repeals the federal ``blister pack'' exemption; reduces 
the federal per-transaction sales threshold for pseudoephedrine, 
ephedrine, and phenylpropanolamine products from 9 grams to 3.6 grams; 
and clarifies the law to include derivatives of each of these 
chemicals. The section also extends the Attorney General's existing 
authority to set import and production quotas, expands the existing 
penalties for illegal production and importation, and seeks to address 
a gap in our existing regulatory control system for imports and exports 
of pseudoephedrine.
    As the Committee knows, the Administration strongly supports the 
development of Federal legislation to fight methamphetamine production, 
trafficking, and abuse. Effective Federal legislation would include an 
individual purchase limit of 3.6 grams per transaction for retail sales 
of over-the-counter products containing pseudophedrine; elimination of 
the blister pack exemption for pseudoephedrine products, thus requiring 
all products containing this substance to be subject to Federal law 
regardless of packaging; and, to prevent diversion of pseudoephedrine 
shipments for illegal use, a requirement that importers of 
pseudoephedrine request and receive approval from the DEA if there is a 
change in the shipment's original purchase. Additional controls on 
pseudoephedrine, however, must always be balanced against legitimate 
consumer access to affected products. A number of States have 
approached this challenge in different ways, taking into account their 
individual law enforcement and consumer access needs. As referenced 
above, early data indicate that several States which have done this 
through individual legislative and regulatory initiatives appear to 
have seen real and sustained reductions in the number of 
methamphetamine labs in their states. Denying methamphetamine cooks the 
ability to gather the ingredients they need, while balancing the need 
of law abiding citizens to be able to access these commonly used cold 
products, is an approach that works. We look forward to working with 
Congress.

Title II--International Regulation of Precursor Chemicals
    This title would require additional reporting requirements for 
importers of ephedrine, pseudoephedrine, or phenolpropanolamine by 
requiring them to file additional information about the chain of 
distribution of imported chemicals. It also would place an additional 
reporting requirement on the State Department to identify the 5 largest 
exporters of major methamphetamine precursor chemicals, and the 5 
largest importers that also have the highest rate of meth production or 
diversion of these chemicals to the production of meth. This title 
would incorporate these countries into the annual international 
counternarcotics ``certification'' process, and would make many forms 
of foreign assistance contingent on the President's certification that 
these countries are ``fully cooperating'' with the U.S. in enforcing 
chemical controls. (For chemical control efforts, the bill reverts to 
the stricter standard in effect before the 2002 certification cycle, 
after which the President designates only those countries that have 
``failed demonstrably'' to cooperate.) Finally, the legislation would 
require the State Department's Bureau for International Narcotics and 
Law Enforcement Affairs to provide assistance to Mexico to prevent the 
production of methamphetamine in that country and to encourage Mexico 
to stop the illegal diversion of meth precursor chemicals.
    We have serious concerns about these provisions. As you know, the 
Administration already reports on some of the information this language 
would require in the annual International Narcotics Control Strategy 
Report. Although we agree that diversion of precursor chemicals is a 
serious problem and that the annual counternarcotics ``certification'' 
process should do more to account for the actions of our foreign 
counterparts with respect to chemical control, we believe that there 
are more appropriate and plausible ways to achieve this overall goal. 
An inter-agency group coordinated by the Department of State, with the 
Department of Justice taking the lead in drafting, has also been 
addressing the problem of how to take better account of synthetic drugs 
and precursor chemicals in the certification process. We would like the 
opportunity to consult with the Committee as we address some of the 
same difficult issues you face in attempting to evaluate chemical 
commerce and countries' chemical control efforts.
    In October 2004, the Administration released the National Synthetic 
Drugs Action Plan. In doing so, we proclaimed the seriousness of the 
challenges posed by methamphetamine--along with other synthetic drugs 
and diverted pharmaceuticals--and our resolve to confront those 
challenges. Part of the Action Plan specifically recognized the move of 
large labs outside the United States requires that we offer assistance 
to strengthen anti-methamphetamine activities. This, in turn, requires 
working with other countries known to suppling methamphetamine 
producers with illicit pseudoephedrine. A Synthetic Drugs Interagency 
Working Group (SD-IWG), co-chaired by the ONDCP and the Department of 
Justice, was directed to oversee implementation of the Action Plan and 
to report to the ONDCP Director, Attorney General, and Secretary for 
Health and Human Services six months after the document's release. In 
the Interim Report, dated May 2, 2005, the SD-IWG responded to this 
portion of the Action Plan:

        <bullet>  China (particularly Hong Kong) has been a significant 
        source of pseudoephedrine tablets that have been diverted to 
        methamphetamine labs in Mexico. The United States and Mexico 
        have obtained a commitment by Hong Kong not to ship chemicals 
        to the United States, Mexico, or Panama until receiving an 
        import permit or equivalent documentation and to pre-notify the 
        receiving country before shipment.

        <bullet>  The United States has made significant progress in 
        assisting Mexican authorities to improve their ability to 
        respond to methamphetamine laboratories. The DEA has played a 
        role by providing diversion and clandestine lab cleanup 
        training courses for Mexican officials (both Federal and 
        State).

        <bullet>  In conjunction with our joint efforts, Mexico this 
        year began to impose stricter import quotas for 
        pseudoephedrine, tied to estimates of national needs and based 
        on extrapolations from a large population sample. Additionally, 
        distributors have agreed to limit sales of pseudoephedrine to 
        pharmacies, which in turn will sell no more than approximately 
        nine grams per transaction to customers.

    These developments stand as a model for the next steps to be taken 
with the limited number of manufacturers who produce bulk ephedrine and 
pseudoephedrine. Our efforts are, and will continue to be, focused on 
the primary producing and exporting countries for bulk ephedrine and 
pseudoephedrine: China, the Czech Republic, Germany, and India. Some of 
these efforts are not new, but involve a long-term commitment, using 
the tools at the Administration's disposal, to engage with foreign law 
enforcement and regulatory counterparts in these countries and to 
replicate the steps taken with Hong Kong and Panama. These steps 
include improving the sharing of information on pseudoephedrine 
shipments with other countries, thus preventing their diversion--
especially to Mexico.
    Under existing Federal law, the DEA must be notified if an 
ephedrine or pseudoephedrine product is destined for, or will transit 
through, the United States. But the legal and regulatory tools to limit 
imports and after-import distribution are relatively crude. Moreover, 
the prevailing interpretation of the 1988 United Nation's Convention 
that controls chemicals allows most finished pharmaceutical products 
containing pseudoephedrine in combination with other ingredients to be 
shipped in international commerce without pre-notification--a wide-open 
loophole that continues to be exploited by drug traffickers. The U.S., 
along with our Mexican and Canadian counterparts, has been working to 
gain international support for voluntary international cooperation to 
pre-notify shipments of these products; our efforts are being channeled 
through the drug control commission of the OAS (``CICAD'').

Title IV--Enhanced Environmental Regulation of Methamphetamine By-
        Products
    This title would give additional authority to the Transportation 
Department and the Environmental Protection Agency (EPA) to enforce 
environmental regulations against meth cooks who cause toxic pollution 
with meth by-products. In addition, this title would clarify existing 
law in light of the recent Eighth District Court of Appeals decision in 
United States v. Lachowski to allow the Federal government to seek 
restitution for environmental cleanup costs on persons involved in meth 
production and trafficking.
    While the Administration cannot comment on the specific proposals 
in this title, the environmental costs associated with meth production 
have long been a concern of the DEA. In FY 1988, the DEA's Hazardous 
Waste Disposal Program was established to assist our Special Agents in 
the management of the chemicals, waste and contaminated equipment 
seized at clandestine drug laboratories. Funding for this program was 
initially provided through the Asset Forfeiture Fund. In 1998, the DEA 
began receiving funding from the Community Oriented Policing (COPS) 
program, and DEA Appropriated Funds in FY 1999, to support the cleanup 
of clandestine drug laboratories seized by state and local law 
enforcement. Together with the Asset Forfeiture Fund, these funding 
sources continue today.
    Today, when a federal, state or local agency seizes a clandestine 
methamphetamine laboratory, EPA regulations require the agency to 
ensure that all hazardous waste materials are safely removed from the 
site. To facilitate the removal of these materials, the DEA awarded the 
first private sector contracts in 1991for hazardous waste cleanup and 
disposal. This program promotes the safety of law enforcement personnel 
and the public by using qualified companies with specialized training 
and equipment to remove hazardous waste seized at clandestine drug 
laboratories. These contractors provide response services to DEA, as 
well as state and local law enforcement officials nationwide. These 
contracts serve communities by removing the source-chemicals that may 
pose threats to the public, which also helps to protect the 
environment.
    Since the DEA first began using contractor services in the early 
1990s, the number of cleanups has skyrocketed, though the average cost 
per cleanup has greatly decreased. The average cost per cleanup during 
the initial contract was approximately $17,000. During FY 2002, the 
average cleanup cost dropped to approximately $3,300, and currently, 
the average cost per cleanup is approximately $2,000.
    To further reduce the cost of lab cleanups, in FY 2004, the DEA, 
with assistance provided by COPS, joined the Kentucky State Police to 
establish a pilot, clandestine lab ``container program'' in Kentucky. 
The program allows trained Kentucky law enforcement officers to safely 
package and transport hazardous waste from the clandestine laboratory 
sites to a centralized secure container that meets all hazardous waste 
storage requirements. The waste is subsequently kept in the container 
until it can be removed by a DEA contractor. The container program has 
streamlined the laboratory cleanup process by enabling law enforcement 
officials to manage small quantities of seized chemicals more quickly 
and efficiently. As of the third quarter of FY 2005, the average cost 
of cleanup in this project was approximately $350. The DEA is currently 
working to expand this program to several other states.

                               CONCLUSION

    Methamphetamine continues to take a terrible toll on this country. 
To combat this poison, the DEA is attacking methamphetamine on all 
fronts. Our enforcement efforts are focused not only on the large-scale 
methamphetamine trafficking organizations distributing this drug in the 
U.S., but also on those involved in providing the precursor chemicals 
necessary to manufacture this poison. The DEA is well aware of the 
importance of controlling the precursor chemicals necessary to produce 
methamphetamine and is working with our international counterparts to 
forge agreements to control the flow of these chemicals
    We are also working closely with our state and local law partners 
to assist in the elimination of the small toxic labs that have spread 
across the country. The DEA's Hazardous Waste Program, with the 
assistance of grants to state and local law enforcement, supports and 
funds the cleanup of a majority of the laboratories seized in the 
United States. The DEA has also taken an active role in the Victim 
Witness Assistance Program to assist methamphetamine's victims 
educating communities about the dangers of meth and other illicit 
drugs.
    Thank you for your recognition of this important issue and the 
opportunity to testify today. I will be happy to answer any questions 
you may have.

    Mr. Coble. Thank you, sir. We've been joined by the 
distinguished gentlelady from California, Ms. Waters. Ms. 
Waters, good to have you with us.
    Ms. Waters. Thank you.
    Mr. Coble. Dr. Lester.

 TESTIMONY OF BARRY M. LESTER, PH.D., PROFESSOR OF PSYCHIATRY 
  AND HUMAN BEHAVIOR AND PEDIATRICS, BROWN UNIVERSITY MEDICAL 
                             SCHOOL

    Mr. Lester. Chairman Coble, Chairman Sensenbrenner, Ranking 
Member Scott, Members of this Subcommittee, we're in a similar 
situation today with methamphetamine as we were in the mid-
1980's with what became known as the cocaine epidemic. During 
that time, there was legitimate concern for the welfare of 
children born cocaine-exposed. Based on poor information, there 
was a rush to judgment that led to an overreaction by society 
that had negative consequences for women and children.
    Many women were prosecuted; children were removed from 
their biological mothers; and families were broken up. As a 
result, the number of children in foster care reached an all-
time high in the mid-1990's. Many children suffered emotional 
problems from multiple foster care placements. And this is what 
led to the 1997 passage of the Adoption and Safe Families Act, 
requiring permanent placement within 12 months of a child being 
removed from his or her biological mother.
    After 20 years of research, we learned that the effects of 
cocaine were not nearly as severe as initially feared. In fact, 
when factors like other drugs and poverty are controlled, the 
effects are subtle. We're talking about three or four IQ 
points, slight increases in behavior problems. In fact, these 
effects are not very different from those of cigarette smoking 
during pregnancy.
    We also learned that while there are most definitely drug-
using women that are inadequate parents, there are also drug-
using women who are competent parents, and that with treatment, 
families can be kept together.
    Our understanding of addiction has also changed in the past 
20 years. We know more about addiction as a disease, as a 
medical mental health issue, and a disease that can be treated. 
It's a complex disease with multiple mental health co-
morbidities, so that women who use drugs also tend to have 
other mental health problems.
    So the bad news is that addiction is complex and requires 
serious treatment dollars. The good news is that it is 
treatable, and if we take a treatment-oriented rather than a 
punitive approach, we can reduce the problem of drug addiction 
in the country. I don't see the treatment approach in this 
legislation.
    We learned some real hard lessons as the cocaine story 
unfolded. And I'm concerned that we're making the exact same 
mistakes with methamphetamine that we made with cocaine, as 
suggested by recent media coverage, by the punitive nature of 
this bill, and the absence of treatment dollars.
    Methamphetamine is a stimulant like cocaine. Research on 
the effects of prenatal methamphetamine exposure on child 
outcome are just beginning. The only longitudinal study that's 
being done so far is our NIH study. And so far, what we're 
finding is very similar subtle effects to the effects we saw 
with cocaine. Again, to give you a context for this: not very 
different than women who smoke cigarettes during pregnancy.
    Does this mean it's harmless, or that it's okay for women 
to use meth during pregnancy, or that we should not treat the 
women or the children? Of course not. Drug use of any kind 
should be discouraged during pregnancy, and treated. We know 
from previous research that even these smaller effects can turn 
to larger deficits, if the parenting environment is not 
adequate. And it is also possible that there are drug effects 
that don't show up until children get to school.
    What we need here is a more balanced approach, and one that 
will get at the root causes of drug addiction. Sending more 
people to prison for longer periods of time is not the answer. 
Our knowledge base is still evolving, and will continue to do 
so. But we know enough now to fight addiction with treatment 
and keep families together if possible.
    So here are some specific suggestions. We need a national 
consensus on how to deal with issues like maternal drug use 
that does justice to state-of-the-art knowledge in research and 
treatment and demonstrates a fair and unbiased attitude toward 
women with addiction and their children.
    We need to improve access to treatment; develop and 
coordinate multidisciplinary treatment programs with 
interconnected services based on the needs of women, mothers, 
and children. Models of methamphetamine treatment are based on 
adult male models. There are no treatment models designed to 
meet the specific needs of women, pregnant women, or mothers. 
For example, we know from the cocaine experience that it 
doesn't do any good to tell a poor mother with four kids in tow 
that she has six different appointments in six different 
locations, without providing transportation and babysitting.
    We need to develop systematic prevention efforts, both 
treatment and education. And this includes education to prevent 
the onset or continuation of drug use and treatment to prevent 
future problems due to drug use.
    And we need to develop family treatment drug courts, with 
the goal of keeping custody or reunification whenever possible. 
Drug courts are a way of providing a ``treatment with teeth'' 
approach that includes rewards for compliance with treatment 
and sanctions for non-compliance with treatment.
    In Rhode Island, we have a program called ``VIP''--it 
stands for ``Vulnerable Infants Program''--which includes a 
family treatment drug court. We say ``vulnerable'' to imply 
that these children are somewhat fragile, but not damaged. And 
of course, they are VIPs; they're very important people.
    This is a voluntary ``treatment with teeth'' program that 
has already been successful. We have reduced the length of stay 
of drug-exposed babies in the hospital; increased the number of 
infants who are going home with their biological mothers, hence 
reducing the number in foster care; and increased the number of 
children being reunified with their biological mothers. We 
should consider waiving punishment for clients who agree to, 
and comply with, treatment.
    In sum, we have made tremendous gains in our understanding 
of addiction and treatment in the past 20 years. We have the 
opportunity to keep families together today in ways that were 
not possible only a few years ago. I am very optimistic about 
our ability to reduce addiction and save future generations of 
children through treatment. It would be not only a missed 
opportunity, but also a step backward, to put all of our eggs 
in the punishment basket. Thank you.
    [The prepared statement of Mr. Lester follows:]

               Prepared Statement of Dr. Barry M. Lester

    Chairman Coble, Chairman Sensenbrenner, Ranking Member Scott, 
Members of the Subcommittee, thank you for the opportunity to testify 
on H.R. 3889, the Methamphetamine Epidemic Elimination Act.
    We are in a similar situation today with methamphetamine as we were 
in 20 years ago during the cocaine epidemic. During that time, there 
was legitimate concern for the welfare of children exposed to cocaine 
in the wbomb. But based on insufficient or inaccurate information, 
society rushed to judgment--an over-reaction that had negative 
consequences for women and children. Many drug-addicted women were 
prosecuted and children were removed from their care. Families split 
up. As a result, by the mid 1990s, the number of children in foster 
care reached an all-time high to over 500,000. Many of these children 
suffered emotional problems from multiple foster care placements. This 
lead to the 1997 passage of the Adoption and Safe Families Act, or 
ASFA, requiring permanent placement of a child within 12 months of 
being removed from his or her biological mother.
    After 20 years of research, we learned that the effects of cocaine 
are not nearly as severe as initially feared. In fact, when factors 
like other drugs and poverty are controlled, the effects are subtle--IQ 
lowered by 3 to 4 points, a slight increase in behavior or attention 
problems. These effects are similar to those caused by cigarette 
smoking during pregnancy. Scientists also learned that while there are 
most definitely drug users who are inadequate mothers, there are also 
drug users who are competent mothers who, with treatment, can care for 
their children.
    Our understanding of addiction has also changed in two decades. We 
know more about addiction as a disease--a medical condition that can be 
treated. Addiction is a complex disease with multiple mental health co-
morbidities; Women who use drugs also tend to be depressed and anxious 
and may have even more severe mental health problems. So the bad news: 
Addiction is complex. The good news: Addiction is treatable. We can 
reduce the problem of drug addiction in the country. I don't see 
treatment addressed in this legislation.
    We learned some hard lessons since the cocaine story unfolded. I am 
concerned that we are on the verge of making the same mistakes with 
methamphetamine that we made with cocaine, as suggested by sensational 
media coverage, the absence of federal treatment dollars--and the 
punitive nature of this bill.
    Methamphetamine is a stimulant like cocaine and produces similar 
effects on neurotransmitters in the brain. Research on the effects of 
prenatal methamphetamine exposure on child outcome is just beginning. 
To my knowledge, my current research into the prenatal effects of 
methamphetamine is the only such project funded the national Institutes 
of Health. Children in our study are still infants. So we can't measure 
all the affects of this drug. But, so far, we are seeing the same kind 
of subtle changes with methamphetamine that we saw with cocaine. 
Again--to put this in context--not very different than what you'd see 
with cigarette smoking.
    Does this mean methamphetamine is harmless? Is it acceptable for 
women to use the drug during pregnancy? Of course not. And we know from 
previous research--including research with cocaine-using mothers--that 
even small neurobehavioral effects can turn to larger deficits if 
parenting is not adequate.
    What we need is a balanced approach--one that will attack the root 
causes of drug addiction. Sending more people to prison for longer 
periods of time is not the answer. We know enough now to fight 
addiction with treatment and, if possible, keep families together.
    Here are some specific suggestions:

        <bullet>  Develop a national consensus on how to deal with 
        maternal drug use that draws on current research and tested 
        treatment strategies--and demonstrates a fair and unbiased 
        attitude towards drug-addicted women and their children.

        <bullet>  Improve access to treatment and develop coordinated 
        treatment programs with interconnected services based on the 
        needs of women, mothers and children. Models of methamphetamine 
        treatment are based on adult male models. None are designed to 
        meet the specific needs of women, pregnant women or mothers. 
        For example, we know from the cocaine experience that it does 
        no good to tell a poor mother with four kids in tow that she 
        has six different appointments in six different locations 
        without providing transportation or baby-sitting.

        <bullet>  Develop systemic prevention efforts. This includes 
        education to prevent onset or continuation of drug use as well 
        as treatment to prevent future problems due to drug use.

        <bullet>  Develop Family Treatment Drug Courts with the goal of 
        keeping custody or reunification whenever possible. Drug Courts 
        are a way providing a ``treatment with teeth'' approach that 
        includes rewards for compliance with treatment and sanctions 
        for noncompliance with treatment. In Rhode Island, we have a 
        program called VIP (Vulnerable Infants Program) which includes 
        a Family Treatment Drug Court (FTDC). Vulnerable is meant to 
        imply that these children are somewhat fragile but not damaged 
        and of course they are Very Important People. This is a 
        voluntary ``treatment with teeth'' program that has been 
        successful. We have reduced the length of stay of drug-exposed 
        babies in the hospital, increased the number of infants who are 
        going home with their biological mothers (hence reducing the 
        number in foster care) and increased the number of children 
        being reunified with their biological mothers. We should 
        consider waiving punishment for clients who agree to and comply 
        with treatment.

    In sum, we have made tremendous strides in 20 years when it comes 
to understanding drug addiction and treatment. We have the opportunity 
to keep families together today in ways that were not possible only a 
few years ago. I am very optimistic about our ability to reduce 
addiction and save future generations of children through treatment. It 
would be not only a missed opportunity, but a major step backward, to 
put all of our eggs in the punishment basket.
    Mr. Chairman, thank you again for the opportunity to testify here 
today. I would be happy to answer any questions.

    Mr. Coble. Thank you, Dr. Lester. And thanks to each of you 
for your testimony. Gentlemen, we impose the 5-minute rule 
against ourselves as well, so if you all could keep your answer 
as terse as possible it would enable us to move along.
    Mark--We've got two ``Marks.'' Mr. Souder, you touched on 
this very briefly, but I want to revisit it. The Talent-
Feinstein proposal listed pseudoephedrine as a Schedule V drug 
under the Controlled Substances Act, and restricts monthly 
sales to individuals. Why did you not include it in your bill?
    Mr. Souder. We tried to deal with the question of blister 
packs and quantity purchase. We're silent on that. That way, it 
could be merged with this. But let me say what my personal 
opinion is; which does not necessarily represent the group of 
sponsors on the bill, because it's silent on this subject.
    Meth, unlike crack and other things, has not covered the 
whole country. Even in my district, it's in the rural areas and 
some of the small towns, but not in the city of Fort Wayne, of 
200,000, or in Elkhart, of 45,000. It's nowhere near the East 
Coast. It may get there as it moves east, and it may go into 
the cities.
    But it means that shutting down pseudoephedrine products, 
cold medicines, for everybody in the United States doesn't make 
much sense, in my opinion. Certainly, in rural areas where they 
don't have pharmacies in a lot of the grocery stores, in 
effect, you'll pull all the profitability of the grocery stores 
out and you'll shut them down. In these little markets in New 
York City and in Los Angeles, in big cities, you take all the 
cold medicines out. That's part of the profit of these stores, 
and you're depriving consumers when they don't have a meth 
problem.
    Now, I believe that you should get at it at the wholesale 
level. Where you see it go up, we should try to address that. 
But I believe we're taking a big stick to whack a problem that 
is isolated--growing; it's a threat; but if we need to do that, 
if it becomes national, then we do it. I don't favor it at this 
point, and I think we need to look for something that's a more 
complex, diversified approach, than a simplistic answer.
    Mr. Coble. All right, thank you, Mark.
    Dr. Lester, let me put a three-part question to you. How 
successful are drug treatment programs for meth abuse, A? What 
types of drug treatment programs work and what types do not 
work, B? And finally, C, how addictive is meth, as compared to 
other drugs?
    Mr. Lester. There are methamphetamine programs that are 
successful. Probably, the best well-known one is called the 
``Matrix'' program, which was developed out in California. I 
think the problem with all of the methamphetamine programs, 
including Matrix, is that they were pretty much developed on 
adult male models. So again, they don't deal with special 
populations like women and mothers, and certainly pregnant 
women.
    So I think the ideal situation would be to take some of the 
models that have been developed for cocaine and methamphetamine 
and reorganize them for special populations. And I think we 
also need to get them combined with family treatment drug 
courts; what would be, you know, a whole package to go.
    What types of programs work? The kinds of programs that 
work are programs that are comprehensive, that are family 
based--in other words, that treat the whole family. You know, 
for example, if you treat the mother and put her back in the 
home where her husband or her boyfriend is using, that's not 
going to do any good.
    They have to be comprehensive, and treat the mental health 
co-morbidities that go along with substance abuse. So 
comprehensive programs are critical. And the programs that do 
not work are the kind of one-shot, you know, just going after 
one aspect of the problem, and ignoring everything else.
    Mr. Coble. How about the addictive? Is it more addictive 
than other drugs, or how does it compare with other drugs?
    Mr. Lester. It's more psychologically addictive than a lot 
of other drugs. It's not necessarily physiologically addictive. 
I mean, it's psychologically addictive like cocaine, maybe even 
a bit more, depending on the nature of the user.
    Mr. Coble. Thank you, sir.
    I think I have time for one more question. Mr. Rannazzisi, 
what tools would assist the DEA in increasing enforcement 
actions against the larger meth traffickers and the Mexican 
superlabs?
    Mr. Rannazzisi. Well, there's a variety. Again, we're 
treating these cases just like we treat normal drug cases. 
We're going after the larger organizations. That being said, 
since there's two components here, we're looking at both the 
small labs, trying to deal with that, and also the large 
Mexican organizations.
    We have the CPOT program, and we're targeting these large, 
major organizations, these principals that are running these 
drug organizations, through that program. However, you know, 
again, we have to go back to what we need legislatively.
    I think that the Administration, through Secretary Leavitt, 
AG Gonzales, and Mr. Walters from ONDCP, laid out what we need 
legislatively to help us along with this case: the 3.6-gram 
limit on purchases; the elimination of the blister pack 
exemption that, you know, has been dogging us for years now; 
and also, removal of the chemical spot market loophole.
    The chemical spot market loophole is, basically, killing 
us. What happens is, in the spot market, if an importer brings 
drugs--an importer sets up to import a certain amount of 
pseudoephedrine, say, for two or three companies. He gets 
permission from DEA. Over a 15-day period, we give him 
permission for those particular downstream customers.
    Now, when the drugs come in, or the pseudoephedrine comes 
in, at that point in time, if he loses one of those customers, 
he could sell it to anybody, and DEA is not aware of it. That's 
the spot market loophole. It could go to any distributor, 
anywhere in the U.S. So what we're asking for is to close up 
that loophole. That's the tools we need.
    Mr. Coble. Thank you, sir. My time has expired.
    The distinguished gentleman from Massachusetts, Mr. 
Delahunt.
    Mr. Delahunt. Yes. Thank you, Mr. Chairman. I want to 
compliment the DEA for the good work that they do. I also want 
to compliment my colleagues, Mr. Kennedy and Mr. Souder. I know 
that their commitment is outstanding in terms of dealing with 
this particular issue.
    Let me tell you what my problems are. I don't see anything 
about treatment in here. Okay? Secondly, we've been down the 
road before of mandatory sentences. I think it was you, Mr. 
Kennedy, that alluded to sending messages. We've been sending 
messages.
    I think it should be by now conclusive evidence that just 
simply enhancing penalties is in no way going to reduce the 
trafficking in a particular controlled substance. You know, in 
1988, there was legislation. I think that was the year that 
created the 5- and 10-year minimum mandatories. In 1996, I 
believe it was--the threshold amount was reduced. We're going 
back to do the same thing again.
    You know, I'm convinced that if we're going to do something 
significant and substantial, we have to look at the treatment 
paradigms, and make some choices in terms of our funding. 
There's no reference in the legislation about treatment. I 
mean, the demand--you've got to attack this on the demand side.
    Deterrence, I'm not saying that we don't have to have 
penalties. Clearly, we have to have significant sanctions. But 
we've been down that route. And now we have an epidemic. We 
didn't have the epidemic in 1988 and 1996. Now it's an 
epidemic, as described in the title of this bill.
    There is a program, I understand, out in Orange County that 
requires a minimum of an 18-month treatment program, and 
whoever graduates from it must be drug free for a period of 180 
days, must be employed, must have his or her act together.
    What about Professor Lester's observation about there are 
some successful programs dealing with adult males now, and 
expanding that to all different subsets of the addict 
population? Congressman Souder.
    Mr. Souder. May I respond?
    Mr. Delahunt. Please.
    Mr. Souder. Several things. First off, this is--we're doing 
a series of meth bills and a series of amendments. These are 
different appropriations. This is the Judiciary Committee. It 
has to be targeted to judiciary things. To go on Frank Wolf's 
Appropriations Subcommittee, which is where this may be 
attached, it had to be relevant to that appropriations bill; 
therefore, it doesn't address that.
    I believe this does not add mandatory minimums. In fact, we 
changed it to make sure we held bipartisan support. We did 
lower the thresholds because meth--unlike crack and unlike 
heroin, these people are producing and selling simultaneously. 
It's a different type of a drug than anything else we're 
dealing with.
    Now, in the treatment question, first off, I don't disagree 
that we need to do more. And we need to be looking at the 
Labor-HHS bill to address that. We need to be targeting things 
inside that on meth. Charlie Curie, the head of SAMHSA, was in 
my district. We've met with different treatment providers.
    I strongly disagree with the statements--some of them--
earlier; I agree with some of the conclusions. There is no 
adult male meth treatment. He's talking about cocaine and 
heroin. I don't think he's got that much experience with meth.
    The Matrix model isn't working in meth. They're trying to 
get it to work, but you have the mom, the dad, their whole 
group. There's not like an enabler, a support group, to put 
them back.
    We need to be targeting funds in HHS, and drug treatment 
funds. We need to increase drug courts. We've heard that drug 
courts work because if you have a law and enforcement, then 
they'll go to treatment. And we need to make sure there are 
treatment dollars there.
    This is a law enforcement bill. We need to look at how to 
take this Matrix model where--you know one other problem? In 
these rural areas, they can't do the Matrix model because they 
don't have enough dollars to pay a staff-level person who's 
experienced enough even to test the Matrix model in these mom-
and-pop labs.
    I don't disagree with you at all on treatment. I support 
more dollars for treatment. I support legislation for that. 
I've co-sponsored legislation for that. That's not what this 
is.
    Mr. Delahunt. Just reclaiming my time for 1 minute, you 
know, what concerns me is that a bill would come from this 
Committee with these mandatory minimums, and nothing will 
happen on the treatment side. What I would suggest to you, in 
terms of expanding your base of support, that there be an 
omnibus bill to be presented to the Committee, including and 
implicating treatment.
    Whether the Matrix program works or not, I don't know. But 
I do know this. Okay? By cutting the threshold amounts, it's 
the same thing as expanding the minimum mandatory sanction. And 
it hasn't worked. It just won't work.
    You know, mandatory treatment--mandatory treatment--should 
be a concept that I would suggest should be introduced into 
this kind of legislation; rather than just simply a mandatory 
minimum prison sentence. Mandatory treatment is something that 
I dare say would receive widespread support.
    Yes, you do need those triggers, and you need those 
sanctions. Oftentimes, people will not come voluntarily to 
these potential treatment programs unless there is some sort of 
coercion. But that's the direction we ought to be going in.
    Mr. Coble. I thank the gentleman.
    The distinguished gentleman from Florida, Mr. Feeney.
    Mr. Feeney. I thank the Chairman. And I want to 
congratulate my colleagues, Congressman Souder and Congressman 
Kennedy, for tackling a major national problem that seems to be 
expanding very rapidly.
    One question I have for any of the panel is related to the 
demographics. On page 3 of our memorandum, the Members here 
have an indication that, of the Federal offenders, something 
like 60 percent of the offenders are white, 33 percent are 
Hispanic, and only 2 percent are African American. Do you have 
any explanations or theories as to the disproportionately high 
level of Caucasians and disproportionately low level of African 
Americans that have been convicted of Federal offenses?
    Mr. Souder. If I can take a quick stab at that, based on 
our regional field hearings, I've asked the same question in 
multiple locations across the country. It appears that it is in 
the rural areas where you see the mom-and-pop labs, which are 
the easiest ones to arrest because they tend to blow up their 
families, tend to pollute the rivers. So they come into law 
enforcement quicker than those who are from the superlabs and 
the crystal meth--they tend to be disproportionately white. The 
rural areas are disproportionately white. They start off in a 
motorcycle gang, spread into the community, and are heavily 
white.
    When you see the superlab organizations come in, even in 
the rural areas, they're predominantly Hispanic; but they're 
still selling meth. It's predominantly a rural, and 
increasingly a suburban, phenomenon.
    Omaha and Minneapolis/Saint Paul are the two big cities 
that have been hit. I asked the U.S. Attorney and the State 
Director in Minneapolis, when we were up there in Saint Paul at 
Congressman Kennedy's request, why we didn't see meth in the 
African American community. And he said because the traditional 
distribution methods are with cocaine in the major cities, and/
or heroin; not meth.
    But in one neighborhood in Minneapolis, one of the 
distribution groups moved over to meth. And in that area, in 3 
months, 20 percent of the people arrested in that community--
the whole community--were meth, because that one neighborhood 
switched over, because the local gang realized they could cut 
out the Colombians and just work with the Mexican superlabs 
with meth.
    That's why I believe this is a potential epidemic that's 
going to destroy Los Angeles, Chicago, Detroit, Boston, and 
other cities, if it gets into the larger urban communities.
    Even in my home town of Fort Wayne, which is 230,000, we 
have had one lab, and around it--we are fifth-largest in the 
nation, but it hasn't come into the city because the 
distribution network is cocaine and heroin.
    Mr. Feeney. Doctor? And by the way, could you address--I 
asked the question based on ethnic demographics, but I'd also 
be interested based on economic demographics. Are we largely 
talking about, you know, poor people? Or is this an exotic, you 
know, drug in the Wall Street and Hollywood----
    Mr. Lester. Sure you want to know? I can only speak from 
our ongoing NIH study. In that study, the places where we're 
doing this research are Oklahoma, Iowa, southern California, 
and Hawaii. And the demographics that we're seeing are pretty 
much what you described: very, very few black; mostly Caucasian 
and Hispanic.
    We're looking into that because we don't, you know, quite 
understand it. What we've been hearing is that a lot of it is 
cultural; that for some reason, you know, cocaine seems to be--
you know, cocaine seems to be confined to, you know, black, 
inner-city, poverty populations; and meth seems to just be more 
popular with--not so much strictly poverty, but a lot of blue-
collar workers, a lot of, you know, farm people, factory 
workers. And not necessarily poor; it's working people.
    Mr. Feeney. Okay, Doctor. But what do you think of Mr. 
Souder's theory? He's got a very good control group of African 
Americans. His theory is that it's--based on the evidence that 
he's heard--is that the use disparity is because of the 
distribution networks; and once you infiltrate the distribution 
network of the traditional cocaine users, that the African 
American community--this problem will mushroom as well.
    Mr. Lester. We haven't seen that. What we've heard is that, 
for whatever cultural reasons, the inner-city African Americans 
don't like it. They just--they prefer cocaine.
    Mr. Feeney. Well, let's hope that's true. Finally, either 
for my good friend----
    Mr. Lester. Why would you hope that's true?
    Mr. Feeney.--Mr. Kennedy or Mr. Souder, on the 10th 
amendment issue, I have concerns about federalizing every 
crime. This doesn't actually add any new crimes; although it 
does lower some of the thresholds. Is that right?
    Mr. Kennedy. It does lower the thresholds. Where we give 
the ability to add an additional penalty is when they're using 
these expedited entry programs coming in from Mexico; which is 
distinctly a Federal issue.
    Mr. Feeney. The import-export I have no problem with.
    Mr. Kennedy. So we want to make sure that we're keeping 
commerce going back and forth between Mexico and America, 
Canada and America. So when they use those sort of, you know, 
``You're clean, we'll let you through quicker,'' and then bring 
meth in, we want them to have an extra penalty. And I think 
that is a Federal role.
    Mr. Feeney. I'm out of time. It's up to the Chairman, Dr. 
Lester.
    Mr. Coble. I didn't see the red light. The distinguished 
gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. Dr. Lester, do I 
understand that you treat pregnant women that may be drug 
addicted with meth?
    Mr. Lester. Well, in Rhode Island, we don't have much meth; 
so mostly, we treat cocaine users. We are seeing some of the 
meth users in our other studies.
    Mr. Scott. Well, in the other studies, I assume your 
interest is to reduce the drug use, just a straight--that's 
your interest. And in that interest, what is the medical 
protocol to reduce the drug use? Is it to turn the pregnant 
woman over to the police, or to start a prevention treatment 
protocol?
    Mr. Lester. This is not a treatment study, so what we're 
doing is looking at the effects of prenatal methamphetamine 
exposure on the development of the children. So we're not 
providing treatment.
    Mr. Scott. Well, what would be the protocol to deal with 
the problem?
    Mr. Lester. Well, the protocol that we would use would be 
the one that we're using in Rhode Island for the cocaine using 
mothers, which is our VIP program, where we identify the 
patients in the hospital, present the voluntary treatment part 
to them and lay out a treatment plan, and then develop a 
treatment plan and get them to sign up for it. And if they do, 
then they get to either keep their baby or, if the baby has 
already been removed, they get reunified.
    Mr. Scott. But the focus with the goal of reducing drug use 
would be treatment, not incarceration?
    Mr. Lester. Oh, absolutely. No, I mean, the whole idea 
would be that if you can reduce the addiction, then you're 
going to reduce the need for drugs, right? And also, you know, 
since we work with children, our firm belief is that you would 
then prevent children from growing up in drug environments, and 
perhaps reduce the prevalence of drug users in the next 
generation.
    Mr. Scott. Thank you. Mr. Rannazzisi, for 5 grams of crack 
cocaine you get 5 years mandatory minimum. To get the 5 years 
mandatory minimum, you've got to get up to 500 grams of powder. 
Is that right?
    Mr. Rannazzisi. Yes, I believe that's correct; five and 
five, yes.
    Mr. Scott. Is there any evidence that people use powder 
rather than crack cocaine because of the disparity in 
sentencing where you can get probation versus 5 years mandatory 
minimum?
    Mr. Rannazzisi. I don't necessarily if our users use the 
statutory minimums as a deterrent. I think it's their personal 
choice, whatever drug they want to use.
    Mr. Scott. Right. And the fact that you can get probation 
for one or 5 years mandatory minimum doesn't really enter into 
the calculation. They're both illegal. So you did not reduce 
the incidence of crack use by having a draconian 5-year 
mandatory minimum sentence; did you?
    Mr. Rannazzisi. Putting it that way, I guess not.
    Mr. Scott. Okay. Let me ask you another question. You were 
talking about 3 grams of meth to trigger the Federal mandatory 
minimums in this bill?
    Mr. Rannazzisi. I just briefly read the bill, and I believe 
that was 3 grams, yes.
    Mr. Scott. Okay.
    Mr. Rannazzisi. Three-point-five.
    Mr. Souder. It's intent to distribute; not for usage. 
Possession doesn't do it; it's intent to distribute.
    Mr. Scott. Well, if you've got it and you've got friends, 
you pretty much can--have you got a problem, if you've got 
somebody with a requisite amount, busting them for 
distribution, if they've got friends and they kind of use it 
together?
    Mr. Rannazzisi. I believe that would be up to the U.S. 
attorney to make that decision.
    Mr. Scott. How much is a weekend's worth of meth? How much 
does that cost, and how many grams is it? If somebody just 
wanted to get high over the weekend, how much would they be 
buying?
    Mr. Rannazzisi. Well, that would be up to the user. You 
know, usually, they buy in grams or half-grams. It's usually 
three to five hits per gram. And it just depends. Remember, 
methamphetamine keeps you high, or keeps you up, a lot longer 
than cocaine does; so, you know, depending on the user, how 
long he's used it, he could be up for--you know, two or three 
hits could keep him up all day, maybe into the next day. It 
just depends on the user and the tolerance of the user for the 
drug.
    Mr. Scott. For a user, 3 grams, how long would that last? I 
mean, would it be a month's worth?
    Mr. Rannazzisi. No, it wouldn't be a month's worth. 
Probably--probably, two, three, maybe 4 days, if he's a regular 
user, and if he's not sharing.
    Mr. Scott. Wait a minute. Three grams would be a couple of 
days worth?
    Mr. Rannazzisi. Three, maybe 4 days, yes. It depends on how 
many hits he's taking. It depends on the amount he's using for 
one hit.
    Mr. Scott. Well, we're just kind of getting a ball park 
figure to know what the trigger is for the mandatory minimums. 
My time is up. We're going to have another round, I believe. 
So, thank you.
    Mr. Coble. The distinguished gentlelady from California, 
Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman. I'd like to 
thank our panelists for being here today, and my colleague, Mr. 
Souder, for his interest in this area.
    I don't know if you know, Congressmen, about all that we've 
been through with crack cocaine and mandatory minimum 
sentencing. In addition to the mandatory minimum sentencing, 
the conspiracy laws that work hand-in-hand have jailed an awful 
lot of folks in the black community, a lot of women who happen 
to be the mates or girlfriends of guys who get caught up in 
possession and sale of crack cocaine.
    What's troublesome about crack cocaine is young people, 19 
years old, who have never committed a crime before, who come 
from good families, who--you know, at the wrong place, the 
wrong time, the wrong crowd--with 5 grams of crack cocaine, end 
up in prison under mandatory minimum sentencing laws. And of 
course, the number of years increases with the amount in 
possession. And these young people, once they do 5 years in 
Federal penitentiary, probably will never work again. It's hard 
to get their lives together. Mandatory minimum sentencing has 
been devastating on the African American community.
    I hear questions being asked about, ``Why don't they use 
meth?'' It's kind of a strange question, and I'm trying to 
figure out what that means. But the fact of the matter is, we 
have gone through heroin, PCP, crack, now meth. And meth is 
being talked about as the most devastating drug in the Midwest, 
with the whites, I suppose, falling prey to this devastation.
    The fact of the matter is, whether it is crack or meth, you 
know, we have a drug problem in America, and it's not going to 
be solved with mandatory minimum sentencing. As a matter of 
fact, we exacerbate poverty and family separation and 
devastation to communities with these kinds of penalties.
    What we don't want to talk about is the cost of dealing 
with drug addiction and the fact that we need treatment 
programs and we need a bevy of people who are trained, social 
workers who are trained, to be assigned to families, to keep up 
with them while they complete their treatments and see them 
into mainstream.
    But that's just too much for us to talk about. And even 
though you say that treatment is dealt with in other places 
where it's more appropriate and they have the jurisdiction, and 
you come here to talk about trying to do something on the 
criminal justice side, I submit to you that those of us who 
have been working with the Sentencing Commission and who have 
been working--I hold a workshop every year with the 
Congressional Black Caucus. And I have brought in hundreds of 
folks who have been the victims of mandatory minimum 
sentencing.
    Judges don't like it. They hate it. I've written to every 
Federal judge who has responded, you know, ``It's a problem 
that Congress created for us, and you need to do something 
about it.''
    So I can't in any way be helpful or supportive of anything 
that increases mandatory minimum sentencing. I'm very, very 
supportive of getting tough on superlabs, getting tough on 
incorrigible individuals who are intent on production--and I 
think there are some ways to do that--clearly identified as 
criminals.
    But most of these young people, you're going to find, 
whether it's in Idaho or any of these other places, that end up 
in these parties or barns that go on all night with the use of 
meth, are not really criminals. And they need help, and they 
need treatment programs.
    And if these young people end up in prison, with mandatory 
minimum sentencing--and you're reducing it from five to three--
you're just creating another problem in our society for people 
who cannot get a job, cannot get student loans, cannot get 
section 8 programs. And they come back and they rob and they 
steal and they survive.
    So I would ask you to look at this again, and rethink 
whether or not you want to deal with the mandatory minimum 
sentencing in this way. I think there's some room to deal with 
the precursors. I think there's some room to deal with the 
border. I mean, you know, come in here and talk to me about 
Vicente Fox, and what we're going to do with him and trade if 
they don't do something about transporting these drugs across 
the border from these superlabs in Mexico.
    But to just, you know, talk about, you know, young people 
who use this meth and get high, going to penitentiary, does not 
do anything to make me believe that it's going to be helpful. I 
yield back the balance of my time.
    Mr. Gohmert. [Presiding.] Thank the gentlelady from 
California.
    Mr. Souder. Mr. Chairman, may I briefly comment on what the 
bill says?
    Mr. Gohmert. Do you have any objections?
    [No response.]
    Mr. Gohmert. All right, without objection, you may take 2 
minutes.
    Mr. Souder. Thank you. I appreciate the gentlelady's 
concern. This deals with distribution. I know Congressman 
Rangel, when he first did the crack cocaine mandatories, was 
trying to get ahead of the curve with it in New York City and 
elsewhere.
    And you can argue about the power of crack, and whether 
that worked, but meth is different. The users are the cookers. 
We're talking here about home labs--home-type labs, not the 
crystal meth. And it's not kids. For the most part, this 
problem isn't kids. It's adults. And it is rural-wise, moving 
toward the suburban and urban areas.
    Ms. Waters. Where is your empirical data on all of this?
    Mr. Souder. Oh, it's documented through drug court data, 
through DEA data. If you go in the only cities where they've 
had meth for 10 years, like Honolulu, it has moved into the 
cities. And then it starts to look like any type of drug. But 
they're having--but what's different about a mom-and-pop lab is 
they're having to spend $300 to $400 in some apartment 
complexes to fumigate it, once it hits the city, because it 
endangers--the toxic chemicals endanger the next family coming 
in.
    This is different than other types of drugs, and we have to 
understand it's going to take a different solution. I don't 
believe the solution here, personally, is more mandatory 
minimums for usage. I believe you do have to get into hardline 
positions on distribution and get control of this.
    Ms. Waters. But distribution is possession. So how much are 
you talking about in possession in order to trigger these 
reduced mandatory minimums?
    Mr. Souder. It's also different than other drugs, because 
you do not get off easy, in the sense of you start with a light 
part--it's not something like marijuana, where you find casual 
users; or even crack or cocaine, where you find casual users; 
or heroin users, who can still function. Meth users tend to go 
straight down on a line, unless they go cold-turkey off it. 
It's different than other drugs.
    Ms. Waters. No, I want to tell you, we heard this about 
crack. It's supposed to be one hit, and you can never stop. So, 
you know, as each of these drugs are introduced into our public 
policy making, they're always described as one being more 
terrible than the other. They're all terrible.
    Mr. Souder. Oh, I agree----
    Ms. Waters. They're all terrible.
    Mr. Gohmert. We've lost the organizational flow here. Did 
you yield? If you want to yield to the gentlelady from 
California, then that's how it would have to be, because it was 
your 2 minutes. But did you finish?
    Mr. Souder. Yes.
    Mr. Gohmert. Okay, next--all right, then the chair yields 5 
minutes to Mr. Scott.
    Mr. Scott. Thank you. Mr. Rannazzisi, in manufacturing and 
distributing meth, how much of the price that the buyer pays is 
actual production cost, as opposed to distribution cost? Is it 
fair to say the cost of the product is de minimis in the 
overall transaction?
    Mr. Rannazzisi. I don't know, you're looking at $100--well, 
between $80 and $100 a gram, we'll say. Okay? Usually, the 
small labs are not making--you know, they're making an ounce. 
They're usually about a half-ounce, but they could make up to 
an ounce or two. It doesn't cost a lot to make the drug. 
Actually, it's very cheap to make the drug, extremely cheap to 
make the drug.
    Mr. Scott. In the superlab, out of the $100, $80 to $100 
you pay for the ounce, how much did they pay for product?
    Mr. Rannazzisi. You mean--I'm sorry, the gram. Eighty to 
$100 a gram.
    Mr. Scott. Gram? Okay. Whatever--Okay, $80 to $100 a gram. 
How much of that went to the actual product cost?
    Ms. Waters. Five dollars.
    Mr. Scott. Is it safe to say it's de minimis? I mean, it's 
meaningless.
    Mr. Rannazzisi. I wouldn't know. I wouldn't know to answer 
that question. It depends on how much they're paying for their 
materials, their raw materials.
    Mr. Scott. Right.
    Mr. Rannazzisi. Exactly.
    Mr. Scott. And the raw materials, in the overall cost of 
what you make, the overall cost of the materials would be 
essentially de minimis. I mean, the real stuff is the 
distribution, the risk of getting arrested, and all that. 
That's what you're paying for: distribution, not manufacturing. 
Is that right?
    Mr. Souder. Mr. Scott, I agree with this: on the superlabs, 
it's almost all distribution. On the mom-and-pop, the price 
varies so much by area, and whether they're selling to their 
friends. Sometimes they're just selling it to purchase more 
materials to make it.
    Mr. Scott. And with the mom-and-pop, they don't have the--
what do you have?--the savings in volume, because they've got 
to buy the equipment. And if they just make a couple of ounces, 
all of their equipment and setup is spread over just a few 
ounces. Whereas, the superlab, that same cost would be spread 
over pounds.
    Mr. Souder. The other minimal thing that we've heard--we 
haven't had a lot of meth addicts who've testified, but in 
talking to some of them and having their testimony, they don't 
appear to be able to hold a job shortly after becoming 
addicted. It's a fairly downward cycle relatively rapidly. So 
they try to replace income for their car, sometimes their house 
payments, with the sale.
    Mr. Scott. Now, we're aimed at true kingpins. And is it 
true that the low-level guy caught up in the conspiracy will 
get charged with the whole operation? So if you had a corner 
guy, just passing it, and it's a million-dollar operation, he 
will be charged with the whole million dollars; is that right?
    Mr. Rannazzisi. Again, that's up to the United States 
attorney that reviews the case.
    Mr. Scott. Can he do it? He can do it; is that right?
    Mr. Rannazzisi. The U.S. attorney would make that decision. 
If he feels he has enough evidence to do that prosecution----
    Mr. Scott. If he's got a multi-million-dollar operation, 
everybody in the operation is on the hook to the multi-million-
dollar threshold; is that right?
    Mr. Rannazzisi. Again, if the evidence proves that a person 
is involved in the conspiracy and can be culpable for that 
amount, the U.S. attorney makes that decision.
    Mr. Scott. Culpable in the distribution, in the operation--
your little, low-level operator in a multi-million-dollar 
operation. The fact is that when they say, ``How much were you 
involved with?'' in terms for threshold purposes, it's the 
whole ball of wax, all of it. Everybody gets charged with all 
of it; isn't that right? Excuse me, may be charged, at the 
discretion of the U.S. attorney.
    Mr. Rannazzisi. At the discretion of the U.S. attorney.
    Mr. Scott. Okay. So we know it's possible.
    Mr. Rannazzisi. Yes, it is possible.
    Mr. Scott. In terms of the import quotas for the chemicals, 
who gets to set what the quota will be? How much actually gets 
in?
    Mr. Rannazzisi. Well, since this is new, I can only speak 
for what we do as far as controlled substances. As far as 
controlled substances go, raw materials, we look at the 
national consumption.
    Mr. Scott. Wait, wait a minute. Who is ``we''?
    Mr. Rannazzisi. The Drug Enforcement Administration.
    Mr. Scott. DEA?
    Mr. Rannazzisi. Yes.
    Mr. Scott. Not FDA?
    Mr. Rannazzisi. The Drug Enforcement Administration.
    Mr. Scott. Okay. There are legitimate uses for these 
chemicals; is that right?
    Mr. Rannazzisi. Absolutely. Yes.
    Mr. Scott. Now, I mean, suppose the drug manufacturers, the 
cold remedy people, want more. Who gets to decide whether or 
not they can import the stuff?
    Mr. Rannazzisi. Well, are we talking an aggregate quota? 
They would have to provide justification for importing more. 
They'd have to provide justification. As we're setting up a 
quota system, justification has to--they have to provide 
justification for us to determine what the quota amount will 
be. They just don't give us a figure and we say, ``Okay.'' 
There's got to be some justification.
    Mr. Scott. Well, if I could, Mr. Chairman, is this quota--
--
    Mr. Gohmert. The Chair will yield an additional minute.
    Mr. Scott. Thank you. Is this quota per transaction? I 
mean, you just kind of make it up as you go along? Or is there 
a national quota, that so much can come in? Or you kind of 
regulate it piece by piece? How would that work?
    Mr. Rannazzisi. I can only speak for controlled substances, 
but when we have raw material quotas on controlled substances, 
it changes year to year, depending on the legitimate need of 
the----
    Mr. Scott. Is this an aggregate quota for the country?
    Mr. Rannazzisi. For the country, absolutely, yes.
    Mr. Scott. Okay. And then who gets it? I mean, does Merck 
get it, and Eli Lily can't get it?
    Mr. Rannazzisi. For controlled substances we take each 
individual company, each individual company that requests a 
need for a particular raw material. And when we look at all the 
companies together, that's how we determine the aggregate 
amount.
    Mr. Scott. And does Merck get what you allocated to them? 
Suppose they say, ``Wait a minute, we can sell more than 
that''?
    Mr. Rannazzisi. Well, every year a quota is made, so every 
year they have an opportunity to re-request additional quota 
amounts. And I believe in the system we've built in where, if a 
company does need additional amounts, we're able to grant that, 
in some cases.
    Mr. Scott. And if they have a complaint, like they feel 
they weren't treated fairly, what remedy do they have?
    Mr. Rannazzisi. They would again apply to DEA, and it would 
go through our process of reconsideration.
    Mr. Scott. And if DEA is obnoxious, what remedy do they 
have?
    Mr. Rannazzisi. I believe----
    Mr. Scott. I mean, suppose----
    Mr. Rannazzisi. I believe DEA is fairly----
    Mr. Scott. No, suppose you've got two competing drug 
companies and you've allocated more to one than the other. I 
mean, can you go to court?
    Mr. Rannazzisi. It goes through the regulatory process. And 
there's a notice and comment period, and they can request a 
hearing.
    Mr. Scott. And so when the DEA says, ``Merck, no, you can't 
get any more cold medicine,'' that's it?
    Mr. Rannazzisi. Well, again, it goes through----
    Mr. Scott. No remedy. Is there a remedy?
    Mr. Rannazzisi. Yes, I believe there is a remedy. I believe 
that's through the regulatory process, administrative process.
    Mr. Scott. What about a lawsuit?
    Mr. Rannazzisi. I'm sure that--everybody, I think, has that 
opportunity to file a lawsuit, sir.
    Mr. Gohmert. The gentleman's time has expired.
    I did want to ask questions. I got in this afternoon. My 
district has been hit by Hurricane Rita, and we were already 
holding quite a few folks from Hurricane Katrina. But I did 
want to ask, I mean, Texas has been restricting the numbers of 
pseudoephedrine that an individual could get for some time now. 
And I wondered if there was any empirical data that had been 
gathered from States that had been restricting the purchases of 
pseudoephedrine for a while.
    Mr. Rannazzisi. Well, the only full-year data set we have 
is from Oklahoma. And that was described in the interim report 
for the National Synthetic Drugs Action Plan Strategy. Oklahoma 
had approximately a 52 percent reduction, based upon their 
restrictions, which was a straight Schedule V restriction.
    It was kind of like a hybrid Schedule V, because in 
Oklahoma you actually--there were three products--liquids, gel 
caps, and liquid gel caps--that aren't affected by that law, so 
they could be sold in the retail markets. Other than that, in 
Oklahoma Schedule V, they're sold in pharmacies only.
    Now, there's other States, such as Oregon who went through 
the pharmacy board to create a regulation to make it similar to 
Schedule V. But if I'm not mistaken, the combination products--
the single-entity products were Schedule V; the combination 
products were not--were kept in pharmacies only. The 
combination products were sold outside of the pharmacies. And I 
believe that was changed later on.
    In Iowa, it's all Schedule V. Even if you have a trace 
amount of pseudoephedrine in the product, it's a Schedule V 
product.
    So as you see, all the States are operating differently. 
Now, Oregon has shown a 42 percent reduction in the first 4 
months of enactment, and that was in the interim----
    Mr. Gohmert. When you say 52 percent in Oklahoma and 42 
percent in Oregon, reduction, in such a short turnaround, what 
is it? Fifty-two percent reduction in what?
    Mr. Rannazzisi. In lab seizures, clan lab seizures, a 52-
percent reduction in clandestine lab seizures.
    Mr. Souder. Mr. Chairman? Mr. Chairman?
    Mr. Gohmert. Yes, sir.
    Mr. Souder. When we first held a hearing, I had the 
Oklahoma program come forth when it was brand new. I was 
enthusiastic about this program. The fact is, Kansas doesn't 
have such a program. They have Meth Watch, and they also 
dropped. Indiana just did one that put it behind the counter, 
but not Schedule V, and guess what? Meth labs have dropped 
before the law was implemented.
    The fact is that if you tackle this issue, and if you have 
a combined effort in the community--through law enforcement, 
through drug treatment, through prevention programs, through TV 
and newspaper awareness--it's a drug that's so bad that you can 
turn it around.
    But over-reaction, which I believe is happening in some--
Mr. Scott put it into the record. The Oregonian is reporting 
that they've had a rise now in meth in Oklahoma; only it's 
first coming in with the superlab stuff.
    But the second thing is, we all know the biggest problem in 
drug trafficking is Internet. At least when it's going into a 
local pharmacy, you can kind of see where it's coming up. You 
can have the law enforcement come in, check it, figure out why 
a pharmacy is doing it. If these people start ordering on the 
Internet--and most of them will say they got the recipe on the 
Internet--if they start ordering from Mexico and Canada, we'll 
never find them. We won't have any control.
    So what looks like a quick, short-term, 12- to 24-month 
solution, I would argue, is causing greater problems down the 
road. And I came through as an enthusiast for this initially. 
Maybe that's where we'll have to go if the epidemic gets too 
bad. But it's too quick of a political reaction to a complex, 
difficult, multi-level problem.
    Mr. Gohmert. I'd agree with you, except I do believe it is 
an epidemic. As a district judge in Texas, I was constantly 
sentencing people who were cooking or selling the results of 
the cooks. And of course, when it was a hot cook, well, that 
was a little easier to spot, because of the smell, and then 
when it went to the cold cook--of course, you could also find 
people after the explosions sometimes, in the hot cook. But the 
cold cook made it harder to catch them.
    But for someone who is already on the record--because I've 
had to give my driver's license and everything else, just to 
get the Sudafed so I don't snore at night when I take the 
Sudafed and it opens up my sinuses--it's a real hassle to 
somebody that's law-abiding, plays by the rules. But I know 
those people that want it, they don't come in and turn their 
driver's license in like I did, and have all that stuff written 
down.
    So I wasn't sure, from the law enforcement I've worked with 
and was a judge for so many years and dealt with it, that 
making honest, law-abiding people like me go in and have to be 
restricted in what we can get, and also now have to give in 
your driver's license, that it really made that much difference 
to people that were determined to be criminal.
    It is an epidemic. It does need additional enforcement. Of 
course, some of the testimony I heard, if your neighbor is 
mowing his lawn at 3 a.m., he's a suspect, even if you don't 
smell the cook or whatever. [Laughter.]
    That came up in one trial I was trying. If your neighbor is 
mowing at three, you may want to let law enforcement know.
    But anyway, I just hate to rush head-long into anything, if 
it may sound like a good quick fix, when overall it may not 
actually be what fixes the problem, to a multi-faceted problem.
    Now, my time has expired, but if you'd care to address, any 
one of you?
    Mr. Rannazzisi. Well, I just want to say that if you look 
at the States and what they've done, the States have tailored 
their legislation to their needs, what they feel their law 
enforcement needs. And it's all over the board.
    We have some States that follow Federal legislation. We 
have some States, like Oklahoma and Iowa, that have gone to the 
extreme end. It's just a balance. We have to balance law 
enforcement needs with the legitimate consumer needs.
    I didn't say one thing, though. If I'm not mistaken, Kansas 
was one of the States mentioned that was Meth Watch. I believe 
they went to a Schedule V, as well.
    Mr. Scott. If I could ask one other question?
    Mr. Gohmert. The Chair yields to the gentleman from 
Virginia.
    Mr. Scott. Could you tell me how this bill would affect 
convenience stores and drug stores?
    Mr. Souder. What roughly happens is, in Indiana, after it 
was originally proposed as a Schedule V--in a Schedule V, it's 
got to be in a pharmacy. And in small towns, the grocery stores 
don't have pharmacies. In fact, they're lucky if they have a 
grocery store or a pharmacy any more, because it can't make 
money. In Indiana, just going behind the counter, which means 
you have more and more behind the counter--you have lottery 
tickets, you have cigarettes, you have everything else--that 
they've restricted--the practical implementation in the last 30 
days has been they've gone from 120 alternative cold medicines 
down to 20. They can't put them all behind the counter.
    Furthermore, as it starts to ripple through, when you 
realize it's only--even in a State like Oklahoma, it's not in 
the big cities. And in States like Indiana, it's not in the 
mid-sized cities. So you're restricting everybody in the cities 
from their ability to get cold medicine because you have an 
epidemic outside. But if you don't, they merely go to the 
adjacent State. But if we restrict it at the States, they're 
going to go to Canada and Mexico and the Internet.
    The problem is the reason--with the Meth Caucus tomorrow, 
we're having a roundtable summit. And my frustration with this 
Administration is it takes every angle. It takes a law 
enforcement angle. I'm proud of this bill, and I believe it's a 
compromise. But we're also having ADMHA there tomorrow, we're 
having NIDA there tomorrow, we need--the National Institute for 
Drug Abuse, the Alcohol and Mental Health and Drug Substance, 
ADMHA. We need to have them working on treatment programs.
    We need to have the Safe and Drug Free School Program 
looking at how to get the kids themselves involved in this. We 
need to have our community programs talking about a community 
effort. We need to be looking at every agency and how, when 
this hits, to get ahead of the curve.
    This is one we've seen march west to east, Hawaii to 
California, going to the Midwest, now in upstate Pennsylvania, 
in eastern North Carolina. It's coming. It's coming inside out. 
It hit Dayton for the first time last week. And so we need to 
get ahead of this comprehensively.
    Mr. Scott. My question was what effect the bill would have 
on drug stores and convenience stores.
    Mr. Souder. The bill has no--has minimal effect. It 
restricts the, basically, 48-count; gets rid of the blister 
packs; gets it into a manageable form; starts to track the 
wholesale spot market.
    As Mr. Rannazzisi said, you look at this, and you're trying 
to get the places where there are bulges in the market 
addressed. We're trying to get the big amounts of 
pseudoephedrine coming into the United States.
    Mr. Scott. Well, I mean, you've testified that you're 
trying--is this thing targeted? I mean, because it sounds like 
the bill would apply where there's no problem and it would 
create the administrative hassles whether there's a problem in 
the area or not. Is that true?
    Mr. Souder. What started this discussion was Mr. Coble's 
question to me about Schedule V with my bill. This bill is 
silent.
    Mr. Scott. Well, my question--I don't know what Mr. Coble's 
question was--was if you're running a convenience store or a 
drug store or a grocery store, what difference would the bill 
make?
    Mr. Souder. Minimal. That's quantity sales.
    Mr. Scott. Quantity?
    Mr. Souder. For the individual retailer, all it does is 
reflect quantity sales at that store. He's restricted if 
somebody comes in with a big blister pack, wants more than 48 
at a time, he's restricted. But it's not behind the counter; 
it's not at a pharmacy. We're going at the wholesale national 
level.
    There is another bill moving that Senators Talent and 
Feinstein have done in the Senate, that Congressman Blunt has 
in the House, that could be married to this. And I was 
expressing my opinions and concerns about that bill. This bill 
is de minimis impact on an individual retailer, and de minimis 
impact on people in Virginia and other parts.
    Mr. Scott. Thank you, Mr. Chairman. And Mr. Chairman, I'd 
like a letter, testimony from the American Council on 
Regulatory Compliance, in reference to the legislation, and one 
from--and the other letter that I've cited from, signed by 92 
professionals, suggesting that we need to focus on prevention.
    Mr. Gohmert. If there is no objection.
    [No response.]
    Mr. Gohmert. I don't hear any down at either end. Okay. 
Well, without objection, then, those will be entered into the 
record.
    [The information referred to can be found in the Appendix.]
    Mr. Scott. Thank you.
    Mr. Gohmert. Anything else?
    Mr. Souder. Mr. Chairman?
    Mr. Gohmert. Yes.
    Mr. Souder. May I clarify one other thing from earlier? 
That we have a safety valve in this matter of sentencing. For 
people who aren't central to drug trafficking, it allows a 
sentence beneath the mandatory minimum. You can't be charged as 
a kingpin if you aren't the leader of the organization. That's 
different than conspiracy. So kingpin is statured slightly 
different than conspiracy. It also allows the sentence to be 
negotiated if you turn in the higher-level person.
    Mr. Gohmert. All right. And by the way, that 3 a.m. mowing, 
it actually came out in a capital murder case, because the 
whole ring was involved, and one of them they were afraid was a 
snitch, and she was killed and stuffed in a 55-gallon drum. But 
anyway, unpleasant stuff we're dealing with. And it is an 
epidemic, and we appreciate your attention to that.
    I do thank the witnesses for their testimony. This 
Committee thanks you--or this Subcommittee. And we appreciate 
all you're trying to do to help with the epidemic and the 
problem.
    And in order to ensure a full record and adequate 
consideration of this important issue, the record will be left 
open for additional submissions for 7 days. Also, any written 
questions that a Member wants to submit should be submitted 
within the same 7-day period.
    This concludes the legislative hearing of H.R.3389 [sic], 
the ``Methamphetamine Epidemic Elimination Act.'' I thank you 
for your cooperation. This Subcommittee stands adjourned.
    [Whereupon, at 5:31 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman. I am pleased to join you in convening this 
hearing on the ``Methamphetamine Epidemic Elimination Act.'' 
Unfortunately, I am not able to join you in supporting the bill in its 
current form.
    In the last 15 to 20 years, methamphetamine (Meth) abuse has grown 
to what some now refer to as epidemic proportions in parts of this 
country. We've been making efforts in the Congress for years to address 
the meth problem. The Subcommittee on Crime held 6 (six) field hearings 
on methamphetamine production, trafficking, and use in 1999, in 
Arkansas, California, New Mexico, and Kansas. Testimony was received 
from numerous witnesses, including former methamphetamine addicts, 
family members of the victims of methamphetamine related violence, law 
enforcement professionals, and prevention and addiction treatment 
professionals. Despite what we heard about the need for treatment and 
family support to get people out of meth's grip and back on track, the 
basic approach of the Congress has been to increase the number and 
severity of mandatory minimum sentences. Yet, the fact is that this 
approach clearly has not worked to stem the tide of meth and the fact 
that there is no evidence to suggest it ever will.
    The evidence shows that treatment does work to stem meth addiction 
and abuse. Recently, in an open letter to the news media and policy 
makers, 92 researchers and treatment professionals stated that:
    ``Claims that methamphetamine users are virtually untreatable with 
small recovery rates lack foundation in medical research. Analysis of 
dropout, retention in treatment and reincarceration rates and other 
measures of outcome, in several recent studies indicate that 
methamphetamine users respond in an equivalent manner as individuals 
admitted for other drug abuse problems. Research also suggests the need 
to improve and expand treatment offered to methamphetamine users.''
    Drug Courts have proven especially successful in the case of 
methamphetamine treatment as an alterative to the ``get tougher'' 
approach. The Orange County, California, Superior Court Drug Court 
Program is an example of a program that has effectively addressed the 
methamphetamine problem. This court requires a minimum of an 18-month 
treatment program in which the graduate must be drug free for 180 days, 
have a stable living arrangement, and be employed or enrolled in a 
vocational or academic program. This Drug Court has a 72 percent 
retention rate, with 80 percent of the graduates not being rearrested 
for drugs and 74 percent with no arrest for anything.
    Nonetheless, time and again, Congress has responded to this serious 
problem primarily with more and harsher mandatory minimums. In the 
Anti-Drug Abuse Act of 1988, Congress established a 5 year minimum for 
10 grams of pure meth or 100 grams of meth mixture and a 10 year 
minimum for 100 grams of pure meth or 1 kilogram of meth mixture. In 
the 1990 Crime Control Act, Congress heightened sentencing for ``Ice'' 
a particular form of Meth. Then again in 1996, Congress responded to 
the still growing problem with even tougher mandatory minimums, by 
cutting in half the quantities of the pure controlled substance and 
mixture that would trigger the respective five and ten year mandatory 
minimums.
    In the meantime, as the epidemic has grown exponentially despite 
these ever-increasing punitive approaches by the Congress, states have 
taken a similar approach, enacting harsher and harsher penalties and 
putting more and more emphasis on law enforcement. Yet, they have had 
no more success than Congress with this approach. A recent series of 
articles in The Oregonian newspaper reflected the frustrating results 
of this approach in Oklahoma, and ask unanimous consent to place this 
article in the record. The article pointed out that while Oklahoma had 
great success in slashing the number of home meth labs through vigorous 
law enforcement, it failed to curb meth use. They found that in place 
of the local labs, a massive influx of meth made by Mexican 
``superlabs,'' where tons of pseudoephedrine can be easily obtained, 
had come into their locale, and that it was cheaper and better quality 
than the locally made stuff.
    Despite the clear evidence that increasing penalties does not stem 
the spread or impact of meth, and despite the evidence that treatment 
does significantly decrease the problem, the response in this bill, yet 
again, is to increase mandatory minimum sentencing, even more. This 
bill would further lower the threshold amount of meth that triggers 
harsh mandatory minimum sentences. The major problem with this approach 
is that it will actually make meth more available. This is because 
lowering the quantity threshold for triggering mandatory minimums will 
cause federal prosecutors to concentrate even more on low-level 
offenders that are now being left to the states to prosecute. This will 
simply mean that we will be sentencing the same low level offenders to 
longer sentences, including those who are tied in through conspiracy 
and attempt laws which punish bit players the same as kingpins. This is 
what we have seen with the so-called crack epidemic, where we are 
seeing that over \2/3\ of those sentenced for crack offenses are low 
levl offenders, generally addicts dealing to supply their habit. And 
now, her we go, in the words of Yogi Berra, with ``de ja vue all over 
again.''
    So, Mr. Chairman, I look for word to the testimony of our witnesses 
with the hope that they will enlighten us on proven ways to stem this 
problem, rather than simply doing what we always do--put more low level 
addicts in prison longer, while the problem rages on. Thank you.
   Prepared Statement of Freda S. Baker, Deputy Director, Family and 
    Children's Services, Alabama State Department of Human Resources

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prepared Statement of Prepared Statement of Laura J. Birkmeyer, Chair, 
National Alliance for Drug Endangered Children, and Executive Assistant 
   to U.S. Attorney, Southern District of California, United States 
                         Department of Justice

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Publication entitled ``The Meth Epidemic in America, Two Surveys of 
 U.S. Counties: The Criminal Effect of Meth on Communities, The Impact 
of Meth on Children, submitted by the National Associatino of Counties 
                                 (NACo)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Letter from A. Bradford Card, Legislative Liaison, National Troopers 
    Coalition to the Honorable Mark Souder and the Honorable Elijah 
                                Cummings

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Letter from Donald Baldwin, Washington Director, Federal Criminal 
        Investigators Association to the Honorable Howard Coble

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Letter from Chuck Canterbury, National President, Grand Lodge, 
      Fraternal Order of Police (FOP) to the Honorable Mark Souder

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Letter from William J. Johnson, Executive Director, National 
               Association of Police Organizations, Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Prepared Statement of the Therapeutic Communities of America (TCA)

    Therapeutic Communities of America respectfully requests that this 
written statement become part of the official record for the hearing 
held before the House Judiciary Subcommittee on Crime, Terrorism, and 
Homeland Security on September 27, 2005 on H.R. 3889, the 
Methamphetamine Epidemic Elimination Act. TCA commends the Chairman and 
the Committee for their leadership in holding a hearing on this 
important issue.

              METHAMPHETAMINE AND THERAPEUTIC COMMUNITIES

    Therapeutic Communities of America (TCA), founded in 1975 as a non-
profit membership association, represents over 500 community-based non-
profit programs across the country dedicated to serving individuals 
with substance abuse and co-occurring mental health problems. Members 
of TCA are predominately publicly funded through numerous federal, 
State, and local programs across multiple agency jurisdictions.

                   TREATING METHAMPHETAMINE ADDICTION

    Therapeutic communities have been successful in helping many 
addicted individuals, often thought to be beyond recovery, secure a way 
out of self-destructive behavior. There is a misunderstanding, 
mentioned several times during the hearing, that methamphetamine 
addiction cannot be treated. Methamphetamine can and is being treated 
successfully, both in TCA member programs and by other treatment 
providers.
    Historically, therapeutic communities have been extremely effective 
at adapting their programs to provide effective treatment as drug use 
trends change, and in this respect, the current methamphetamine 
epidemic is no different. Therapeutic communities and other treatment 
providers have found success in creating special protocols to deal with 
the unique challenges that methamphetamine addicts present, while 
treating them with the general population of patients addicted to other 
drugs of choice. No less than Dr. Nora Volkow, the Director of the 
National Institute of Drug Abuse, has noted that ``methamphetamine 
addiction can be treated successfully using currently available 
behavioral treatments.''
    Counselors at several TCA member therapeutic communities that treat 
a high volume of meth users have recorded long-term abstinence rates 
for their patients of between 30-50%. These numbers are not much 
different from typical long-term abstinence rates for treating alcohol 
and other drugs. In the words of a clinician from a TCA member program, 
``Overall success rates have been the same or better in our programs 
after the meth wave came as compared to before. Meth users initially 
experience some cognitive deficits, but otherwise there is not much of 
a difference between them and other users.''

                          TCA RECOMMENDATIONS

    While TCA strongly commends H.R. 3889's focus on methamphetamine 
abuse, we believe that this bill could be greatly strengthened with 
provisions providing for methamphetamine treatment funds. The 2002 
National Survey on Drug Abuse and Health Report stated that only 18.2 
percent of all Americans over the age of 12 needing treatment actually 
received it. Along with enhanced law enforcement capabilities and 
interdiction efforts, evidence-based treatment services provide a 
valuable tool in fighting the growing methamphetamine epidemic. 
Treatment funds are especially crucial because of the nature of the 
meth epidemic--the drug is mostly present in rural communities, where 
evidenced-based treatment services tend to be scarce or limited.
    TCA also recommends that H.R. 3889 include a component that 
encourages NIDA to undertake further research on effective modalities 
for treating methamphetamine addiction. Lastly, TCA respectfully 
requests that the Committee recognize the benefits of treatment as part 
of the solution to eradicating the methamphetamine epidemic from our 
communities, and strongly encourages the Judiciary Committee to work 
with the relevant committees with jurisdiction over substance abuse 
treatment to add provisions that support treatment to this important 
piece of legislation.

        Prepared Statement of the Food Marketing Institute (FMI)

                              INTRODUCTION

    The Food Marketing Institute (FMI), on behalf of the nation's 
supermarkets and grocery stores, appreciates the opportunity to provide 
testimony to the House Judiciary Subcommittee on Crime, Terrorism and 
Homeland Security in response to the issue of methamphetamine abuse in 
the United States and legislation that is designed to combat the 
problem.
    By way of background, FMI is a national trade association that 
conducts programs in research, education, industry relations and public 
affairs on behalf of its 1,500 member companies--food retailers and 
wholesalers--in the United States and around the world. FMI's members 
operate approximately 26,000 retail food stores with combined annual 
sales of $340 billion--three quarters of all food retail store sales in 
the United States. FMI's retail membership is composed of large multi-
state chains, regional companies and independent grocery stores. Our 
international membership includes some 200 companies from 50 foreign 
countries.
    As reflected in our testimony presented by Joseph R. Heerens, 
Senior Vice President, Government Affairs, Marsh Supermarkets, Inc., 
before the House Government Reform Subcommittee on Criminal Justice, 
Drug Policy and Human Resources on November 18, 2004, the supermarket 
industry fully understands the magnitude of the methamphetamine problem 
here in America, and we also recognize the sad fact that legitimate 
cough and cold products containing the ingredient pseudoephedrine (PSE) 
are used to make methamphetamine.
    According to law enforcement sources, legitimate PSE products 
either purchased or stolen from retail stores account for approximately 
20 percent of methamphetamine that is made domestically here in the 
United States, whereas the lion's share of meth found in this country, 
an estimated 80 percent, comes from foreign sources, primarily super 
labs located in Mexico. Thus, it is FMI's view that to effectively 
address the methamphetamine problem we need a comprehensive strategy 
and partnership between law enforcement, regulatory agencies, OTC 
manufacturers and the retail community.

                    SCHEDULE V--SUPERMARKET CONCERNS

    The supermarket industry has serious concerns and misgivings over 
recent initiatives that have been enacted into law at the state level 
and pending federal legislation (S. 103-H.R. 314) that impose stringent 
controls on precursor chemicals at the retail level. We are referring 
to what is called the Oklahoma model that relegates PSE products to 
Schedule V status. Under this approach, only retail stores that have a 
pharmacy department are allowed to sell these OTC medications, and 
these items must be kept behind the pharmacy counter.
    Without question, Schedule V is very troublesome to our industry. 
That's because an overwhelming majority of grocery stores doing 
business in the United States don't have a pharmacy department and 
would be precluded from selling PSE products. For those supermarkets 
that do have a pharmacy department, store hours are quite different 
from hours of operation in the pharmacy department. For example, while 
supermarkets may be opened from 7:00 am to 11:00 pm, the pharmacy 
department operates on an abbreviated schedule and may only be open 
from 9:00 am to 9:00 pm weeks days, 9:00 am to 7:00 pm on Saturday and 
11:00 am to 5:00 pm on Sundays. Thus, even though the grocery store is 
open for business, if the pharmacy department is not open, or if the 
pharmacist is not on duty, PSE product sales would not be permitted.

                          IMPACT ON CONSUMERS

    The end result under the rigid Schedule V approach is a dramatic 
reduction in consumer access to cough and cold medications depending 
upon whether their local grocery store has a pharmacy department and 
what hours the pharmacy department is opened on a particular day. For 
consumers living in rural areas or in inner city communities, Schedule 
V can create major hardships if the nearest pharmacy is 15 to 20 miles 
from their home or if the person is elderly or poor and would have to 
rely on public transportation in order to get to a pharmacy to purchase 
PSE products.
    FMI along with the National Consumers League (NCL) gauged consumer 
opinion and views on sales restrictions of PSE products in a national 
survey that was released in April of 2005. What the FMI-NCL survey 
found is rather revealing. Forty four percent of the 2,900 adult survey 
respondents felt that Schedule V would create a hardship for them, 
while 62 percent said they did not believe that restricting sales of 
PSE products to pharmacies is a reasonable measure for controlling meth 
production. In stark contrast, the survey respondents were far more 
receptive to less severe restrictions to Schedule V, such as placing 
cough cold and allergy products behind a counter, not a pharmacy 
counter, or placing them in a locked display case. Additionally, more 
than 80 percent of the survey participants expressed support for 
limiting the quantity of such products that individuals can purchase, 
and 74 percent said it would be reasonable to restrict the age of 
purchasers.
    For the above mentioned reasons, FMI and our members cannot support 
a Schedule V classification for cough and cold products containing 
pseudoephedrine. Schedule V clearly poses significant problems for 
consumers who have legitimate needs for these medications to treat 
their allergies, coughs and colds. Schedule V means reduced consumer 
access and hardship because their nearby grocery store, which they 
visit 2.2 times per week, won't be allowed to sell these items. FMI 
further suspects that Schedule V may mean higher prices as PSE products 
move from self-service to behind the pharmacy counter, where the 
pharmacist, a highly salaried professional, will be required to ask for 
photo identification and have the customer sign a log book. While our 
industry applauds the hard work of the law enforcement community in 
their efforts against the methamphetamine plague, we do not believe 
Schedule V is the right solution.

                   COMBAT METH ACT OF 2005 IS FLAWED

    In terms of pending federal legislation, the Combat Meth Act of 
2005 (S. 103) approved by the Senate on September 9, 2005, as part of 
the FY 2006 Commerce/Justice Appropriations, FMI firmly believes that 
this proposal is both deficient and flawed, and in need of significant 
revisions. The following are the deficiencies and flaws that we see in 
this legislation:

        <bullet>  S. 103 fails to provide for a national standard 
        governing the sale of PSE products. Methamphetamine is a 
        nationwide problem that necessitates a national solution. 
        Regrettably, S. 103 allows states and well as localities to 
        establish different restrictions on the sale of PSE products, 
        making compliance by retailers more difficult and complicated.

        <bullet>  The Combat Meth Act of 2005 does not exempt liquids 
        and gel caps even though every state Schedule V law regulating 
        the sale of PSE products exempts liquids and gel caps.

        <bullet>  Unless the Combat Meth Act of 2005 is amended, it 
        will trigger a ``by prescription only'' requirement in as many 
        as 19 states. This would mean consumers would have to get a 
        prescription from their doctor in order to purchase PSE 
        products. As a result, a product that normally sells for about 
        $6.00 at retail will now cost close to $60 when you factor in 
        the physician office visit charge.

        <bullet>  Moreover, the Schedule V provisions in S. 103 will 
        force grocery warehouses and distribution centers that handle 
        PSE products to apply for a Controlled Substances Registrant 
        license from the Drug Enforcement Administration (DEA). This 
        will entail higher licensing fees and new regulatory burdens 
        for these facilities. Imposing Schedule V requirements and 
        costs on warehouses and distribution centers makes no sense 
        since these facilities are not a source of supply for meth 
        cooks.

        <bullet>  S. 103 is too narrow. It only addresses 20 percent of 
        the problem in terms of domestic meth production resulting from 
        PSE products that have been obtained or stolen from retail 
        stores. S. 103 does nothing to address 80 percent of 
        methamphetamine that finds its way into the United States from 
        foreign countries.

        <bullet>  The Combat Meth Act of 2005 dramatically and unfairly 
        reduces consumer access to cough and cold products by limiting 
        their sale to stores that have a pharmacy. PSE products would 
        have to be placed behind a pharmacy counter. Moreover, due to 
        space limitations in the pharmacy, retailers will not be able 
        to carry and offer for sale the wide variety of PSE medications 
        that consumers want or need, and because these products will be 
        behind the pharmacy counter, consumers will no longer have the 
        opportunity read and compare product labels.

        <bullet>  The Combat Meth Act of 2005 limits purchasers to no 
        more than 7.5 grams within a 30-day period. This arbitrary 
        limit may be unfair to a family with allergy problems or a 
        parent with several sick children who has a legitimate need for 
        more than 7.5 grams within a 30-day period.

        <bullet>  S. 103 is cavalier in its treatment of internet sales 
        and flea markets. The legislation allows but does not require 
        the Attorney General to promulgate regulations governing the 
        sale of PSE products over the Internet. Furthermore, S. 103 has 
        no provisions relating to flea markets which routinely sell PSE 
        products that in most cases have been stolen from retail stores 
        by organized theft gangs. Flea markets should be precluded from 
        selling PSE products unless these transient vendors have 
        written authorization or appropriate business records from the 
        manufacturer.

        <bullet>  S. 103 allows stores without a pharmacy department to 
        sell PSE products under very limited circumstances. The 
        exemption process is so complicated and convoluted involving 
        both state and federal agencies. It is our view that very few 
        exemptions will be granted and they will not be granted in a 
        timely fashion.

        <bullet>  The implementation dates for Schedule V are 
        unrealistic. For example, single ingredient PSE products would 
        be placed in Schedule V 90-days after enactment and retailers 
        would be required to maintain a log book. It is highly unlikely 
        that the Department of Justice (DOJ) would be able to 
        promulgate necessary regulations in 90-days to tell retailers 
        how to comply with the law.

               FMI SUPPORTS METH EPIDEMIC ELIMINATION ACT

    FMI wishes to express our industry's support for the Meth Epidemic 
Elimination Act (H. R. 3889) that has been introduced by 
Representatives James Sensenbrenner (R-WI), Mark Souder (R-IN), 
Chairman Howard Coble (R-NC) and Roy Blunt (R-MO). Unlike the narrow 
focus of the Combat Meth Act of 2005, this initiative seeks to address 
the methamphetamine problem in a comprehensive manner. The legislation 
is multi-faceted with provisions that would establish domestic as well 
as international regulation of precursor chemicals while providing for 
more severe penalties for methamphetamine production, possession or 
trafficking.
    In expressing our industry's support for the Meth Epidemic 
Elimination Act, we would urge the Subcommittee to make the following 
changes:

        <bullet>  Amend the bill to include strong federal pre-emption 
        language governing the sale the PSE products in order to 
        facilitate retailer compliance, or at the very least prohibit 
        local communities from implementing restrictions that are 
        different from sales restrictions that have been established by 
        a state.

        <bullet>  Revise the legislation from a 3.6 gram per single 
        transaction to 6 grams per transaction.

        <bullet>  Establish a ban on Internet sales of precursor 
        chemicals.

        <bullet>  Prohibit flea markets from selling PSE products as 
        well as infant formula unless these transient vendors have 
        written authorization from the manufacturer.

    FMI, on behalf of the nation's supermarket, appreciates the 
opportunity to provide testimony on this important issue to the 
Subcommittee.
                               __________
  Prepared Statement of the American Council on Regulatory Compliance

    The American Council on Regulatory Compliance is an association 
especially established for small and mid-size manufacturers, 
distributors and retailers of over-the-counter medicines and 
preparations containing List I chemicals that are regulated by the US 
Drug Enforcement Administration (DEA). Although this constitutes a very 
diverse group of businesses both in size and activity, they 
nevertheless share certain common regulatory concerns by virtue of 
distributing these products.
    Although many such businesses may be members of other associations, 
no one single association addresses this situation in depth. The 
commerce in these registered products serves the legitimate 
requirements of millions of consumers. The American Council on 
Regulatory Compliance and its members recognize and accept the 
importance of regulating these products in order to assure proper use. 
They support the state and federal government, and particularly the US 
Drug Enforcement Administration in this important effort. Although this 
effort involves concerns and continually changing issues to the 
business community, it is essential that government and business 
establish the maximum level of cooperation and communication.

         THE ACRC COOPERATES WITH CONGRESS AND FEDERAL AGENCIES

    The American Council on Regulatory Compliance is dedicated to 
cooperating with the U.S. Congress, Federal regulatory and law 
enforcement agencies, such as the Drug Enforcement Administration, 
State and Local Authorities, and other organizations to help prevent 
illegitimate use.
    The ACRC encourages all members to improve training and compliance 
activities and to establish constructive partnerships at all levels of 
government. The association supports the following initiatives:

        (1)  Compliance training for Members;

        (2)  Assisting with education and compliance at the retail 
        level;

        (3)  Developing security and record keeping models;

        (4)  Implementing a system for screening orders and monitoring 
        sales.

        (5)  Promote understanding of laws and regulations.
              ``methamphetamine epidemic elimination act''
    The ACRC supports the overall thrust and spirit of H.R. 3889 and 
believes that it addresses a major problem of illicit Methamphetamine 
use through import controls and increasing penalties for the illicit 
production of Methamphetamine. However, there are provisions of the 
bill that could be modified to improve and clarify the legislation.
    Current law, Title 21, United States Code (21 USC), Section 971 (c) 
(1), allows the Drug Enforcement Administration (DEA) to disqualify 
customers of a List I Chemical Importer, if the List I Chemical may be 
diverted to the clandestine manufacture of Controlled Substances. This 
is achieved by providing written notice to the Importer. After the 
Importer has given notice of their intent to import, they are not 
permitted to continue the transaction. The Importer registrant is then 
entitled, by written request, pursuant to 21 USC 971(c) (2) to an 
administrative hearing within 45 (forty-five) days, to challenge the 
DEA's allegations.
    Currently, the law specifies that a challenge can only be made by 
whom the order applies. Thus, there is a dispute as to whether the 
wholesaler or downstream customer of the Importer can challenge DEA's 
allegations against them. Heretofore, DEA, with the exception of 
situations in which they have been challenged in District Court, have 
not given ``standing'' to customers of the Importers. The new 
legislation language codifies DEA's position of not giving ``standing'' 
to customers of the Importer. This procedure, and the current approach 
taken by DEA, does not give the right of the accused to face their 
accuser in an administrative hearing to challenge the DEA allegations. 
The limited times, it seems, that DEA has been challenged by the 
downstream customer, in lieu of the Importer registrant, appears to the 
outsider, to have been mired in court actions, appeals and continued 
objections by DEA.
    Section 104 of H.R. 3889 (lines 6 through 10) seeks to place 
ephedrine (EPH),
    Pseudoephedrine (PSE) and Phenylpropanolamine (PPA) within the same 
statute that currently applies to Schedule III-V Narcotic Controlled 
Substances. (This could be modified to apply to the creation of a 
special statute section for the listed chemicals PSE, EPH and PPA.)
    The significant questions posed by the provisions of H.R. 3889 are:

        <bullet>  Under what criteria will imported quantities of EPH, 
        PSE and PPA be determined?

        <bullet>  Who will decide the legitimate use in the U.S. for 
        PSE, EPH and PPA--DEA or FDA?

        <bullet>  Will convenience stores, which DEA classifies as 
        ``gray market'' distributors, be entitled to continue 
        dispensing products that contain PSE, EPH and PPA?

        <bullet>  Will retail restrictions be used by DEA to tabulate 
        retail quantities to limit imports?

    The proposed legislation in lines 15-26 on page 7 and continued in 
lines 1-20 on page 8 address only the right of Importers to have legal 
standing. It does not address the needs of downstream customers of the 
Importer registrants. If the Importer wishes not to challenge the 
downstream customer, i.e. distributor or retailer, his customer has no 
``standing''.
    Section 105 defines the conditions by which an Importer registrant 
must adhere, if their initial customer does not purchase the import 
they originally requested. This language subjects the new customer, if 
any, to the aforementioned scrutiny of possible denial, again based 
upon only a challenge by the Importer registrant.

                            RECOMMENDATIONS

    We do not dispute the need to control the Importation of Listed 
Chemicals, especially
    with majority of the problem being illegal importation. However, 
the downstream customers of Importer registrants have no legal standing 
to challenge DEA's allegations they are using listed chemicals PSE, EPH 
and PPA illegitimately ``on the grounds that the listed chemical may be 
diverted to the illegal or clandestine manufacture of a controlled 
substance''. DEA has long held the opinion that convenience stores 
selling cold remedies containing EPH, or EPH are not legitimate retail 
distributors (``gray market'').
    If not modified, certain provisions of this bill could be construed 
to limit sales of legitimate cold remedies to small stores by 
arbitrarily limiting imports to Distributor registrants that sell to 
small retail establishments. In many administrative hearings, DEA has 
used past retail sales history of cold products as evidence that the 
store is engaged in the illegal diversion of pseudoephedrine, even if 
the store increases retail sales in a legal manner.
    Recent enactments of state law also pose a problem. Liquid gel cap 
forms of listed chemical drug products that have been exempted from 
Schedule V requirements under state law could be cumulatively 
aggregated together in import quotas and applied against small retail 
distributors. In such a case, retail establishments would not have 
standing to protest arbitrary restrictions of their supply of 
medications.

                           PROPOSED REVISIONS

1.  EPH, PSE and PPA should not be subjected to the same statutory 
scrutiny as controlled drugs in Schedule III-V Narcotics for purposes 
of importation as proposed on page 7. There is sufficient legislation 
currently in place under the provisions of 21 USC, Section 971 that 
govern imports of listed chemicals.

2.  Under the provisions of the proposed new section (d)(1) there are 
no rights given to a registrant (distributor) or business exempted from 
registration (convenience store). The only rights are given to the 
Importer registrant to object to DEA's denial. Importer registrants 
will be persuaded not to object to challenges, as they are now, for 
future considerations in the marketplace.

3.  Title 21, Section 971 should be amended in all proper places, by 
the insertion of language to expand the rights of the customer of the 
Importer registrant, which are the distributor, dispenser or business 
exempt from registration (retail stores not registered as a pharmacy). 
All rights of the customers of the Importer registrant should be 
delineated, to provide for the expectations of all registrants to be 
permitted to face their accuser.

 Article entitled ``The Mexican Connection,'' Steve Suo, June 5, 2005, 
       The Oregonian, submitted by the Honorable Robert C. Scott

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Article entitled ``More potent supply of meth wipes out success against 
home labs,'' Steve Suo, September 25, 2005, The Oregonian, submitted by 
                     the Honorable Robert C. Scott

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Letter from various medical and psychological researchers 
                          to the Subcommittee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Additinoal Prepared Statement of Dr. Barry M. Lester, Professor of 
 Psychiatry & Human Behavior and Pediatrics, Brown University Medical 
                                 School

    Chairman Coble, Chairman Sensenbrenner, Ranking Member Scott, 
Members of the Subcommittee, thank you for the opportunity to testify 
on H.R. 3889, the Methamphetamine Epidemic Elimination Act.
    We are in a similar situation today with methamphetamine as we were 
20 years ago during the cocaine epidemic. During that time, there was 
legitimate concern for the welfare of children exposed to cocaine in 
the womb. But based on insufficient and inaccurate information, society 
rushed to judgment--an over-reaction that had negative consequences for 
women and children (1). Many women were prosecuted and children were 
removed from their birth mothers. Families split up. As a result, by 
the mid 1990s, the number of children in foster care reached an all-
time high of over 500,000. Many of these children suffered emotional 
problems from multiple foster care placements. This lead to the 1997 
passage of the Adoption and Safe Families Act, or ASFA, requiring 
permanent placement of a child within 12 months of being removed from 
his or her birth mother. Unfortunately, ASFA has been counterproductive 
for families who could easily be reunited if they had access to 
appropriate drug treatment and/or if they were not in jail for drug 
related offenses.
    After 20 years of research, we learned that the effects of cocaine 
are not nearly as severe as initially feared (2). In fact, when factors 
like other drugs and poverty are controlled, the effects are subtle--IQ 
lowered by 3 to 4 points, a slight increase in behavior or attention 
problems. These effects are similar to those caused by cigarette 
smoking during pregnancy. Scientists also learned that while there are 
most definitely drug users who are inadequate mothers, there are also 
drug users who are competent mothers who, with treatment, can care for 
their children. Families can be preserved.
    We also learned that the ``cure'' of foster care can be worse than 
the disease of addiction. University of Florida researchers (3) studied 
two groups of infants born with cocaine in their systems. One group was 
placed in foster care, the other with birth mothers able to care for 
them. After six months, the babies were tested using all the usual 
measures of infant development: rolling over, sitting up, reaching out. 
Consistently, the children placed with their birth mothers did better. 
For the foster children, being taken from their mothers was more toxic 
than the cocaine.
    It is extremely difficult to take a swing at ``bad mothers'' 
without the blow landing on their children. That doesn't mean we can 
simply leave children with addicts--it does mean that drug treatment 
for the parent is almost always a better first choice than foster care 
for the child.
    Our understanding of addiction has also changed in two decades. We 
know more about addiction as a disease--a medical condition that can be 
treated. Addiction is a complex disease with multiple mental health co-
morbidities; Women who use drugs also tend to be depressed and anxious 
and may have even more severe mental health problems. So the bad news: 
Addiction is complex. The good news: Addiction is treatable. We can 
reduce the problem of drug addiction in this country. I don't see 
treatment addressed in this legislation.
    We learned some hard lessons since the cocaine story unfolded. I am 
concerned that we are on the verge of making the same mistakes with 
methamphetamine that we made with cocaine, as suggested by sensational 
media coverage, the absence of federal treatment dollars--and the 
punitive nature of this bill.
    Methamphetamine is a stimulant like cocaine and produces similar 
effects on neurotransmitters in the brain. Research on the effects of 
prenatal methamphetamine exposure on child outcome is just beginning 
(4). The National Toxicology Program, U.S. Department of Health and 
Human Services, Center for the Evaluation of Risks to Human 
Reproduction (CERHR), Expert Panel Report of 2005 on meth concluded 
that

        in terms of the potential adverse reproductive and 
        developmental effects of meth exposure, that ``studies that 
        focused upon humans were uninterpretable due to such factors as 
        a lack of control of potential confounding factors and the 
        issue of the purity and contaminants of the methamphetamine 
        used by the drug abusers.

    To my knowledge, my current research into the prenatal effects of 
methamphetamine is the only such project funded by the National 
Institutes of Health (NIDA). Children in our study are still infants. 
So we can't measure all the effects of this drug. But, so far, we are 
seeing the same kind of subtle changes with methamphetamine that we saw 
with cocaine (5). Again--to put this in context--not very different 
than what you'd see with cigarette smoking.
    In a recent open letter (attached), more than 90 medical and 
psychological researchers, with many years of experience studying 
prenatal exposure to psychoactive substances, outlined the science in 
this area.

        The use of stigmatizing terms, such as ``ice babies'' and 
        ``meth babies,'' lack scientific validity and should not be 
        used. Experience with similar labels applied to children 
        exposed parentally to cocaine demonstrates that such labels 
        harm the children to which they are applied, lowering 
        expectations for their academic and life achievements, 
        discouraging investigation into other causes for physical and 
        social problems the child might encounter, and leading to 
        policies that ignore factors, including poverty, that may play 
        a much more significant role in their lives. The suggestion 
        that treatment will not work for people dependant upon 
        methamphetamines, particularly mothers, also lacks any 
        scientific basis.

    Does this mean that methamphetamine is harmless? Is it acceptable 
for women to use meth during pregnancy? Of course not. And we know from 
previous research--including research with cocaine-using mothers--that 
even small neurobehavioral effects can turn to larger deficits if the 
parenting environment is not adequate. And, it is also possible that 
there are drug effects that don't show up until children get to school 
and higher-level brain functions get activated.
    In terms of treatment, even a cursory examination of the data shows 
that methamphetamine is not uniquely addictive, and that 
methamphetamine abuse is treatable. The federal government's most 
recent National Survey on Drug Use and Health found that 4.9% of 
Americans have used methamphetamine at some point in their life. Only 
.6%, however, have used it within the last year, and only .2% have used 
it within the last month. Most people who use methamphetamine do not 
become addicted and those who do become addicted can be treated. The 
recent open letter by dozens of leading researchers notes:

        claims that methamphetamine users are virtually untreatable 
        with small recovery rates lack foundation in medical research. 
        Analysis of dropout, retention in treatment and reincarceration 
        rates and other measures of outcome, in several recent studies 
        indicate that methamphetamine users respond in an equivalent 
        manner as individuals admitted for other drug abuse problems. 
        Research also suggests the need to improve and expand treatment 
        offered to methamphetamine users.

    Disturbingly, this bill would lower the trigger thresholds for long 
mandatory minimum sentences to amounts that methamphetamine addicts 
typically possess. It seems designed to ensure that Americans with 
substance abuse problems get long prison sentences instead of 
treatment. What we need is a balanced approach--one that will attack 
the root causes of drug addiction. Sending more people to prison for 
longer periods of time is not the answer. We know enough now to fight 
addiction with treatment and do much more to keep many families safely 
together.
    Here are some specific suggestions:

        <bullet>  Develop a national consensus on how to deal with 
        maternal drug use that draws on current research and tested 
        treatment strategies--and demonstrates a fair and unbiased 
        attitude towards drug-addicted women and their children.

        <bullet>  Urge states to enact legislation protecting mothers 
        who voluntarily seek drug treatment from having their children 
        taken away. Many mothers who want treatment are afraid to come 
        forward out of fear they will lose their children.

        <bullet>  Improve access to treatment and develop coordinated 
        treatment programs with interconnected services based on the 
        needs of women, mothers and children. Models of methamphetamine 
        treatment are based on adult male models. Few are designed to 
        meet the specific needs of women, pregnant women or mothers. 
        For example, we know from the cocaine experience that it does 
        no good to tell a poor mother with four kids in tow that she 
        has six different appointments in six different locations 
        without providing transportation or baby-sitting.

        <bullet>  Enact a federal grant program that encourages states 
        to develop treatment programs for women.and families

        <bullet>  Develop systemic prevention efforts. This includes 
        education to prevent onset or continuation of drug use as well 
        as treatment to prevent future problems due to drug use.

        <bullet>  Develop Family Treatment Drug Courts with the goal of 
        keeping custody or reunification whenever possible. Drug Courts 
        are a way providing a ``treatment with teeth'' approach that 
        includes rewards for compliance with treatment and sanctions 
        for noncompliance with treatment. In Rhode Island, we have a 
        program called VIP (Vulnerable Infants Program) which includes 
        a Family Treatment Drug Court (FTDC). Vulnerable is meant to 
        imply that these children are somewhat fragile but not damaged 
        and of course they are Very Important People. This is a 
        voluntary ``treatment with teeth'' program that has been 
        successful. We have reduced the length of stay of drug-exposed 
        babies in the hospital, increased the number of infants who are 
        going home with their biological mothers (hence reducing the 
        number in foster care) and increased the number of children 
        being reunified with their birth mothers. We should consider 
        waiving punishment for clients who agree to and comply with 
        treatment.
             Sacramento County, California has pulled all of these 
        strategies together into a comprehensive, effective system for 
        coping with meth addiction and keeping families safely 
        together. As a program planner for child protective services in 
        that county recently told the authoritative trade journal Youth 
        Today:

               We've got big meth issues in Sacramento County, but 
        they're not paralyzing anybody.

        <bullet>  Enact legislation prohibiting health facilities that 
        receive federal funds from denying treatment to patients with 
        addition and dependency disorders because they have relapsed 
        and manifested the disease they are fighting. Many people with 
        diabetes cheat--use sugar, fail to stay on their diets yet they 
        are not denied insulin, thrown out of their treatment program, 
        and disconnected from the health care that can eventually help 
        them to control their disease. Similarly people with 
        hypertension who eat fatty foods and fail to exercise are not 
        thrown out of their treatment programs and do not have their 
        blood pressure medication taken away from them. Congress could 
        significantly improve health care and chances for long-term 
        recovery by ending this unique form of discrimination.

    Mr. Chairman, I recognize that the focus of H.R. 3889 is to 
``further regulate and punish illicit conduct relating to 
methamphetamine'' and that other companion bills may address the 
treatment and other research issues raised in my testimony. However, I 
would ask that the official hearing record include a copy of the Final 
Report of the Methamphetamine Interagency Task Force http://
www.ojp.usdoj.gov/nij/methintf/ as an existing comprehensive strategy 
aimed at blending both criminal justice and public health approaches to 
reducing methamphetamine use. While this Report originated in a 
previous Administration, most if not all of the guiding principles, 
findings, recommendations, and research priorities are still relevant 
and may save Congress and the current Administration from reinventing 
the wheel.
    Specifically, I'm sure that the scientific community would endorse 
the panoply of prevention, education and treatment initiatives outlined 
in the report. I would give special emphasis to the following: (1) 
Increasing treatment capacities in correctional facilities; (2) 
conducting research on which treatment models work best in prison, in 
drug court and in the community; (3) increasing research on medications 
development and other treatments for meth, and (4) conducting research 
on the effects of meth on pregnant women, treatment of exposed infants 
and (5) evaluation of treatment programs for children and adolescents.
    Additionally, I would appreciate it if you would include the 
attached update highlighting NIDA research on methamphetamine 
addiction.
    In sum, we have made tremendous strides in 20 years when it comes 
to understanding drug addiction and treatment. We have the opportunity 
to keep families together today in ways that were not possible only a 
few years ago. I am very optimistic about our ability to reduce 
addiction and save future generations of children through treatment. It 
would be not only a missed opportunity, but a major step backward, to 
put all of our eggs in the punishment basket.
    Mr. Chairman, thank you again for the opportunity to testify here 
today. I would be happy to answer any questions.

                               REFERENCES

1. Lester, B.M., Andreozzi, L., Appiah, L. Substance Use During 
Pregnancy: Time For Policy To Catch up With Research. Harm Reduction 
Journal, 2004 Apr 20;1(1):5.

2. Lester, B. M., LaGasse, L. L., and Seifer, R. Cocaine exposure and 
children: The meaning of subtle effects. Science. 1998;282:633-634

3. Wobie, K., Behnke, M., et. al., To Have and To Hold: A Descriptive 
Study of Custody Status Following Prenatal Exposure to Cocaine, paper 
presented at joint annual meeting of the American Pediatric Society and 
the Society for Pediatric Research, May 3, 1998.

4. Wouldes, T., LaGasse, L., Sheridan, J., Lester, B. Maternal 
Methamphetamine Use During Pregnancy and Child Outcome: What Do We 
Know? N Z Med J. Nov 26;117(1206):U1180, 2004.

5. Lester, B., LaGasse, L, Smith, L. M., Derauf, C., Grant, P., Shah, 
R., Arria, A., Huestis, M., ann Liu, J. Prenatal exposure to 
methamphetamine and child development. Proceedings of the Community 
Epidemiology Work Group. 2005;22:1-4

                               ATTACHMENT


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
